<html>
<title> - INTERNATIONAL LAW: THE IMPORTANCE OF EXTRADITION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



            INTERNATIONAL LAW: THE IMPORTANCE OF EXTRADITION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 1999

                               __________

                           Serial No. 106-96

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
69-238                     WASHINGTON : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
              Sean Littlefield, Professional Staff Member
                 Gil Macklin, Professional Staff Member
                          Amy Davenport, Clerk
                    Cherri Branson, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 1999.....................................     1
Statement of:
    Borek, Jamison S., Deputy Legal Adviser, U.S. Department of 
      State; Mary Lee Warren, Deputy Assistant Attorney General, 
      Criminal Division, U.S. Department of Justice; and Donnie 
      R. Marshall, Deputy Administrator, U.S. Drug Enforcement 
      Administration.............................................     5
    Riutta, Rear Admiral Ernest R., Assistant Commandant for 
      Operations, U.S. Coast Guard; and Ronald E. Brooks, past-
      president, California Narcotic Officers Association........    72
Letters, statements, et cetera, submitted for the record by:
    Borek, Jamison S., Deputy Legal Adviser, U.S. Department of 
      State, prepared statement of...............................     9
    Brooks, Ronald E., past-president, California Narcotic 
      Officers Association, prepared statement of................    86
    Marshall, Donnie R., Deputy Administrator, U.S. Drug 
      Enforcement Administration, prepared statement of..........    41
    Riutta, Rear Admiral Ernest R., Assistant Commandant for 
      Operations, U.S. Coast Guard, prepared statement of........    74
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................    97
    Warren, Mary Lee, Deputy Assistant Attorney General, Criminal 
      Division, U.S. Department of Justice:
        Extraditions from Mexico to the United States............    18
        Prepared statement of....................................    23

 
            INTERNATIONAL LAW: THE IMPORTANCE OF EXTRADITION

                              ----------                              


                         THURSDAY, MAY 13, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2203, Rayburn House Office Building, Hon. John Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Gilman, Barr, Hutchinson, 
Ose, and Kucinich.
    Staff present: Robert B. Charles, staff director; Sean 
Littlefield and Gil Macklin, professional staff members; Amy 
Davenport, clerk; Cherri Branson, minority counsel; and Ellen 
Rayner, minority chief clerk.
    Mr. Mica. Good afternoon. I would like to call this meeting 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order, and welcome you this afternoon.
    Our subcommittee is going to deal today with the topic of 
the importance of extradition, and we will hear from several 
witnesses who can shed some light on problems that we have 
incurred with specific countries and also in getting compliance 
with our requests for extradition.
    I am going to open before our ranking member comes. I have 
an opening statement, I will recognize others, then we will 
hear from our first panel, and proceed in that order.
    Today, the subcommittee will address an issue that I 
believe lies at the very root of our drug war--getting those 
traffickers who ship deadly drugs and kill innocent citizens 
returned to the United States.
    This issue is extradition--and I believe it is at the very 
heart of winning that war the drugs--and it is the key to 
international law enforcement and respect for law and order. 
Unfortunately, international extradition, especially with our 
neighbor to the south, Mexico, is seldom publicly examined. 
That is why this issue is the subject of our oversight hearing 
being conducted today.
    Since a critical part of returning drug trafficking felons 
to the United States is apprehending them, we will also look at 
the status of our drug-fighting maritime agreements in this 
hemisphere, again, with a focus on Mexico, a country with which 
we have had problems in this area, also.
    A little background of the enormity of the international 
drug crisis may be useful. Both the United States and many 
other nations confront a drug problem today which is reaching 
epidemic proportions. In this decade alone, drug use has cost 
American society more than 100,000 dead and in excess of $300 
billion. Each year, illegal drugs send over a half million 
Americans to hospital emergency rooms and cause at least 14,000 
drug-related deaths. We have lost more American citizens to 
drug deaths than we have lost in the entire Vietnam conflict. 
This past year, in central Florida, in my home area, we had 
more heroin-related deaths than homicides.
    In nations that serve as drug source and transit areas, 
powerful and increasingly violent drug-trafficking groups often 
act with impunity. They become more powerful than duly elected 
governments. These groups seize and maintain their power 
through threats, intimidation, and murder, and they 
increasingly apply those same tactics on U.S. soil.
    Without the capacity or ability to extradite foreign 
criminals to the United States where they are certain to stand 
trial, face conviction, and receive very stiff sentences, we 
will never fully defeat these death-dealing cocaine, heroin, 
and methamphetamine drug trafficking organizations. 
Unfortunately, as most know, the chief offenders have been 
impossible to dislodge from the country of Mexico, also our 
ally to the south.
    Not surprisingly, the only potential nightmare for 
murderous drug kingpins of Colombia, Mexico, and elsewhere, is 
that they could be extradited to the United States. In the 
United States--unlike other locations in the western hemisphere 
and, particularly, in Mexico--bribes and influence will not set 
them free. Only when they face the prospect of confronting our 
judicial system and an American judge, do international drug 
dealers become at all concerned.
    One example will illustrate the fear that extradition 
ignites in the hearts of drug traffickers. Roll back the clock 
to the Colombian trafficking organizations of the late-1980's 
and early-1990's. Medellin and Cali were drug war zones. In 
that nation, more than 3,000 police officers and nearly the 
same number of innocent women and children were executed in an 
all out effort by Pablo Escobar and his traffickers to stop the 
Colombian Congress and President from passing a tough drug 
extradition treaty.
    In 1985, 11 of 24 justices of the Colombian Supreme Court--
were murdered in cold blood by leftist guerrillas employed by 
drug cartels. All 11 judges who were killed were supporters of 
the extradition treaty.
    When the reconstituted supreme court voted on the validity 
of the extradition treaty in 1987, the treaty was mysteriously 
found to be unconstitutional. One cartel slogan is particularly 
memorable. They would say, ``We prefer a tomb in Colombia to a 
jail in the United States.''
    So now, wind the clock forward to 1999. Here we are, and we 
now have an honest and determined President in Colombia. Again, 
we are very fortunate to have President Pastrana in office. We 
have an international and national hero in the person of the 
Colombian National Police Chief Director Jose Serrano. We are 
making progress against traffickers from Peru and Bolivia to 
Colombia and the Greater Antilles, through the courage and 
initiatives of both President Hugo Banzer of Bolivia and with 
the cooperation of President Fujimori and his actions in Peru.
    Missing is that same progress in two nations that continue 
to make extradition and maritime apprehension difficult, if not 
at times totally impossible. The countries which will receive 
the better part of our attention today because of these actions 
are Mexico and Cuba.
    In Mexico, we have a number of requests for the extradition 
of drug traffickers still outstanding. To date, not a single, 
major Mexican drug trafficker and zero drug kingpins have been 
extradited by Mexico to the United States for prosecution under 
United States' law; that is zero.
    We have at least 41 requests outstanding, which I would 
like to make part of the record, without objection, so ordered. 
We will list all of them in the record at this point.
    What is worse, we seem to have little hope without some new 
legislation or some new initiatives by Congress for achieving 
any results in this area. That is one of the reasons this 
subcommittee hearing is so important today, as we get a fix on 
where we have been, where we are, and where we are going with 
this very serious problem.
    Yes, there has been an increase in dialog, and there are 
more common points in our relationship with Mexico than there 
are differences. But the problem we face, the extradition 
impasse, is among the biggest--perhaps, I think the biggest--
aspect of our relationships now on this important issue that 
requires the attention of Congress.
    Also in this hemisphere, and wholly without cooperation in 
this great extradition effort, is Cuba. Castro's Cuba remains a 
safe haven for drug traffickers, and the message today from 
Congress, should be clear that we are not going to tolerate 
inaction by any country in the western hemisphere, particularly 
when we see the damage it is doing to our Nation and to our 
young people.
    Extradition is not a game of diplomacy or an 
inconsequential sideshow in our war on drugs. It is at the very 
heart of winning, at the heart of defeating, the kingpins in 
Mexico and elsewhere, and I believe it is not only in the best 
interest of the United States and our future generations, but 
also in the interest of all children in this hemisphere. So, 
that summarizes the reasons we are having this subcommittee 
hearing today.
    We have an outstanding list of witnesses who are very 
qualified, from the Department of Justice, Department of State, 
Drug Enforcement Administration, the Coast Guard, and we are 
also pleased to have participation by a member and past-
president of the California Narcotic Officers Association. Each 
will give us their perspective on the problems they face 
without full cooperation in the matter of extradition.
    For those comments, I am pleased to yield now to a very 
distinguished member of our subcommittee and also the 
incredibly dedicated chairman of our International Affairs 
Committee, the gentleman from New York, Mr. Gilman. You are 
recognized.
    Mr. Gilman. Thank you, Chairman Mica, and I want to thank 
you for holding this important hearing on extradition. Your 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources is especially important to us these days, as we find 
that the use and trafficking of heroin and cocaine, have been 
climbing incredibly high. There are few more important tools 
than extradition in our arsenal against international 
criminals, terrorists, and drug traffickers who are targeting 
our Nation and targeting our people.
    On the drug battlefront, there can be no safe havens for 
those who seek to destroy our communities and the lives of our 
young people by shipping their poisons into our Nation. Three 
Presidents have previously called illicit drugs a serious 
security threat to our Nation. Such a threat warrants a serious 
response, including extradition, among other weapons that we 
have in our arsenal.
    The Attorney General of the United States, Janet Reno, best 
summed up the new post-cold war fight against international 
crime not long ago when she said, ``There is no such thing as 
one Nation's crime problem anymore. To a new generation of very 
ambitious criminals,'' she said, ``national boundaries are no 
more than a line on the map.''
    I believe the Attorney General's statement is the best 
argument for why we need aggressive extradition, greater 
international cooperation, and the ability to bring to justice, 
here in the United States, those who violate our laws and 
destroy our communities. Whether these drug dealers are from 
Thailand, Colombia, Mexico, or other drug-producing areas 
around the globe, they must be held accountable to our American 
people, to our institutions, and to the laws they violate by 
making us the targets of their criminal activity.
    Our hearing today will highlight the need for more 
accountability, and I look forward to reviewing today's 
testimony. I am pleased that we have such outstanding panelists 
as the Deputy Assistant Attorney General for the Criminal 
Division, Ms. Mary Lee Warren; Ms. Jamison Borek, Deputy Legal 
Adviser to the Department of State; Mr. Donnie Marshall, Deputy 
Administrator of our DEA; and Rear Admiral Ernest Riutta, 
Assistant Commandant of Operations for our U.S. Coast Guard--
our U.S. Coast Guard does such a good job in interdicting--and 
Mr. Ronald Brooks, past-president of California Narcotic 
Officers Association--who we had breakfast with earlier this 
morning.
    I also want to welcome our law enforcement officers who are 
here today on Police Memorial Week. I was just looking over 
some statistics, Mr. Chairman; 14,000 law enforcement officers 
have died since our Nation began some 200 years ago. Over 400 
already this year, and we can't say enough about their heroic 
efforts and what they are doing, protecting lives and property.
    I would also like to remind those who are in the battle 
with us on drugs to make certain that we recognize that we have 
five major battlefields out there in reducing supply and 
reducing demand, all at the same time. Reducing supply by going 
to the areas where it is grown and eradicating. Interdicting 
once it gets into the mainstream of distribution. Law 
enforcement, when it reaches our shorelines. And, in addition 
to reducing supply, to reduce demand, by educating our young 
people and reminding them that drugs are not recreational, but 
they can be deadly. And finally, to treat and rehabilitate 
those who have become victims of drug abuse. We can't take 
money from one to do the other; they all have to be fought 
simultaneously.
    Again, I want to commend Chairman Mica and his subcommittee 
for doing the outstanding job of focusing attention on the need 
to ``beef up'' our war against drugs.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Gilman.
    I am pleased now to recognize the gentleman from 
California, Mr. Ose, for an opening statement.
    Mr. Ose does not have an opening statement at this point, 
so we will go directly to our first panel.
    And our first panel has three witnesses: Mary Lee Warren, 
Deputy Assistant Attorney General of the Criminal Division, of 
our Department of Justice; Jamison S. Borek, Deputy Legal 
Adviser, the Department of State; and Donnie R. Marshall, 
Deputy Administrator of the Drug Enforcement Administration.
    This is an investigations and oversight subcommittee of 
Congress. We do swear in our witnesses, so if you wouldn't 
mind, please stand? Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Thank you. The witnesses answered in the 
affirmative, and I would like to welcome you.
    I see we have at least one repeat offender, and a couple of 
new victims here. [Laughter.]
    We have a few ground rules. We try to ask you to limit your 
oral presentation to 5 minutes. We won't, since we have two 
smaller panels today, be too tight on time. We also allow you 
the opportunity to submit, without objection, longer 
statements, a written statement, or other materials for the 
record.
    So, with those guidelines, we welcome you, and I will 
recognize, first, Mary Lee Warren, Deputy Assistant Attorney 
General of the Department of Justice.

  STATEMENTS OF JAMISON S. BOREK, DEPUTY LEGAL ADVISER, U.S. 
DEPARTMENT OF STATE; MARY LEE WARREN, DEPUTY ASSISTANT ATTORNEY 
  GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE; AND 
DONNIE R. MARSHALL, DEPUTY ADMINISTRATOR, U.S. DRUG ENFORCEMENT 
                         ADMINISTRATION

    Ms. Warren. Mr. Chairman, with your and the subcommittee's 
indulgence, would it be possible for Ms. Borek to begin? I 
think it will be more a logical progression. She will----
    Mr. Mica. Is this something you all have worked out in 
advance? [Laughter.]
    No?
    Ms. Warren. I think she----
    Mr. Mica. That is fine.
    Ms. Warren. Thank you so much.
    Mr. Mica. That is fine; we will recognize Jamison S. Borek, 
Deputy Legal Adviser, who is with the Department of State. And 
I am pleased to recognize you first.
    Welcome.
    Ms. Borek. Thank you, Mr. Chairman, and, members of the 
committee.
    As you have requested, I will simply summarize a few points 
and ask that my prepared statement be accepted for the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Go right ahead.
    Ms. Borek. Thank you.
    The Department of State appreciates the opportunity to 
discuss international extradition with you today. As you have 
noted, the growth in transborder organized and other 
transborder crime has become a major international problem, 
especially in the area of violent crime, terrorism, drug 
trafficking, and laundering of the proceeds of crime. This has 
confirmed the need for increased international law enforcement 
cooperation. This is an across-the-board effort and extradition 
is an essential tool in that effort.
    Extradition is the only formal and organized way to seek 
the return of people for trial. In some cases, deportation can 
achieve the same effect, but it is more an ad hoc and 
occasional process, although sometimes very effective.
    There is no general obligation in international law to 
extradite persons, but there is a widespread practice, and 
certain features of extradition practice are fairly well 
established among all countries. Other aspects, on the other 
hand, are very much a question of local procedure and local 
requirements, and so there is a great deal of variation in the 
actual practice from country to country.
    Under U.S. law, fugitives can only be extradited either 
pursuant to a treaty or, in certain cases, a special statutory 
authority. Generally, it is by treaty, and we have some 110 
extradition treaties with countries throughout the world. There 
is also authority under existing law to extradite persons where 
it is necessary to ensure the prosecution for crimes against 
U.S. nationals abroad, and this can be done under a provision 
of 18 U.S.C., which is fairly recent.
    In the new 1999 crime bill, which will be formally 
submitted next week, we have asked to expand the authority to 
permit extradition in two additional cases, where there is not 
a treaty, but where this is in the law enforcement interests of 
the United States.
    Extradition requests are made by the Department of State in 
the United States, but at the initiative of the Department of 
Justice, based either on Federal or State or local charges. The 
Government's decision to request extradition in different 
countries is divided in different ways between the executive 
and the judicial branches. The decision typically involves both 
branches, with some degree of judicial review under the 
respective laws of the country, and the things which are at 
issue in a judicial review may vary from place to place.
    We have been engaged in a constant process of seeking to 
enter into new extradition relationships as well as to update 
and improve existing ones. We have many old treaties that go 
back even as far as the late-19th century and treaties which 
apply to countries because of decolonization. We are trying to 
update these treaties and to have treaties with countries with 
whom we do not now have treaties, so that we will have, as much 
as possible, a comprehensive web of extradition treaties 
throughout the world.
    This is a very aggressive extradition policy. It is based 
on the idea that everyone should be subject to effective 
prosecution somewhere for their crimes. There are, however, 
some limitations on our ability to accomplish this.
    One big problem that we have encountered concerns the 
extradition of U.S. nationals. As a matter of longstanding 
policy, the U.S. Government does extradite U.S. nationals for 
trial in other countries. This is important to ensure 
prosecution of persons who have committed serious crimes, whom 
we, ourselves, would not be able to prosecute. Not all 
countries, however, take this approach.
    Civil law countries, in particular, often have limitations 
on the extradition of their own nationals. At the same time, 
they typically have jurisdiction, themselves, to prosecute 
these people for crimes committed anywhere in the world. This 
is a theoretical adjunct to non-extradition, but, in practice, 
it is not as effective an approach.
    We have been, along with the Department of Justice, 
aggressively seeking to persuade other countries that it is 
important--in fact, necessary--to extradite their nationals in 
this modern world of transnational crime. We have had, I think, 
some success in this. I think thanks, in particular, to the 
strenuous and even personal efforts of the Attorney General, 
also, the coordinated efforts of the two departments, and the 
fundamental logic of the need to extradite in the interests of 
the countries concerned. There have been notable advances, 
especially in Latin America, with respect to this issue in 
recent years. Our recent treaties with Bolivia and Argentina 
are clear expressions of our efforts in this regard.
    At the same time, however, there are many countries which 
are still extremely reluctant--indeed, completely reluctant, to 
extradite nationals, and we are still continuing to work on 
that with those countries.
    Some of the other problems that we have encountered in 
extradition relationships have to do with the question of death 
penalty and human rights concerns. This is particularly true in 
connection with European countries, but also a number of Latin 
American countries do have problems, even prohibitions, with 
extraditing in death penalty cases, unless we are able to give 
assurances that the death penalty would not be imposed.
    One troubling problem that is emerging is that, in some 
cases, this is being extended to the question of life 
sentences, and we are encountering some situations in which 
countries are unwilling to extradite unless there are 
assurances against life sentences, which is a much more 
difficult, I think, and troubling expansion.
    Another problem has to do with the fact that there is a 
judicial process involved in this in all countries, and 
judicial process gives rise to opportunities for delay of 
increasingly, I think, persons who are facing extradition are 
hiring more and more sophisticated lawyers. This gives rise to 
additional issues; legal issues are being exploited which 
previously had not been, and we are encountering a number of 
problems with particular judicial rulings and general judicial 
delays.
    Notwithstanding these difficulties, we continue to work 
hard with countries around the world to enhance international 
extradition, to address each problem as it arises, both in 
terms of the specific cases and in terms of the overall 
systemic approach to extradition to ensure that it is 
effective.
    In this regard, we work in total lock-step with the 
Department of Justice, and we appreciate the excellent 
partnership that we have enjoyed in this endeavor.
    I thank you, Mr. Chairman, and, members of the committee. 
And I would be pleased to answer any of your questions.
    [The prepared statement of Ms. Borek follows:]


    [GRAPHIC] [TIFF OMITTED] T3238.001
    
    [GRAPHIC] [TIFF OMITTED] T3238.002
    
    [GRAPHIC] [TIFF OMITTED] T3238.003
    
    [GRAPHIC] [TIFF OMITTED] T3238.004
    
    [GRAPHIC] [TIFF OMITTED] T3238.005
    
    [GRAPHIC] [TIFF OMITTED] T3238.006
    
    [GRAPHIC] [TIFF OMITTED] T3238.007
    
    [GRAPHIC] [TIFF OMITTED] T3238.008
    
    Mr. Mica. Thank you, we will save questions until we have 
heard from all the panelists.
    We will now go to Mary Lee Warren, Deputy Assistant 
Attorney General.
    Ms. Warren. Thank you, Mr. Chairman.
    I am pleased to appear before the subcommittee today on 
this very important issue, that is the importance of 
extradition and the global effort to deny safe haven and 
impunity to fugitives.
    Ms. Borek gave sort of a global overview of the extradition 
situation with the United States at the moment, and I will 
focus more particularly on the United States/Mexico extradition 
relationship.
    The report of that extradition relationship is a mix of 
good news and not so good news. Extradition, particularly the 
extradition of nationals, as Ms. Borek said, has been an 
Attorney General, Department of Justice, and Department of 
State priority, and we do see a changing tide in the world on 
this issue. We have even seen the changing of attitudes in 
Latin America, where the subject had previously been considered 
unspeakable. And since 1996, the Government of Mexico has found 
that in exceptional cases, the extradition of Mexican nationals 
may be justified.
    I have provided a chart attached to my written statement 
that gives a statistical overview for 1995 through 1999 of the 
United States/Mexican----
    Mr. Mica. Without objection, we will make that part of the 
record.
    [The information referred to follows:]


    [GRAPHIC] [TIFF OMITTED] T3238.009
    
    [GRAPHIC] [TIFF OMITTED] T3238.010
    
    Ms. Warren. Thanks.
    In Mexico, during 1998, they basically maintained the 
improved record that they achieved since 1995, by formally 
surrendering 12 fugitives through the extradition process, 
including 3 Mexican nationals. In 1997, it was 13, with no 
Mexican nationals; in 1996, 13, with 1 Mexican and 1 dual-
national. One of the Mexican fugitives returned to the United 
States in 1998 faces marijuana trafficking charges in this 
country, but the major crime for which his surrender was sought 
was the murder of an INS boarder patrol agent.
    Thus far, in 1999, two fugitives have been extradited by 
Mexico, one a United States citizen and the other a Mexican 
national who had escaped from a United States Federal 
correctional facility following his conviction on substantial 
narcotics charges.
    In addition, as very good news, in 1998, the Mexicans 
deported to the United States approximately 30 United States 
citizens sought on criminal charges here. They were found in 
Mexico in violation of immigration laws there and turned over 
to the United States authority.
    This total is more than three times any other year for 
which we have statistics. However, as the chairman noted, no 
major Mexican narcotics traffickers has yet been extradited by 
Mexico to the United States. This fact is clearly a 
disappointment to the Department of Justice, as we know it is a 
disappointment to the members of the subcommittee.
    We believe it is important to note at the same time, 
however, that the executive branch of the Government of Mexico, 
through the SRE, their foreign ministry or state department 
equivalent, issued 19 orders of extradition in 1998, including 
5 orders against Mexican citizens facing significant drug 
trafficking charges in the United States. They have issued five 
more such extradition orders in 1999. Of those, some of the 
major traffickers, they have ordered extraditable are the two 
Amezcua brothers, the methamphetamine kingpins, and Arturo Paez 
Martinez, an enforcer in the Tijuana cartel.
    We await the extradition of one or more major Mexican 
traffickers in 1999, but we are mindful, as are our Mexican 
counterparts, that recent court decisions in Mexico could pose 
real threats to our extradition efforts.
    In Mexico, as in the United States, we are reminded of the 
independence of the judicial branch of government. In two 
cases, one against Oscar Malherbe, who was a chief lieutenant 
in the Gulf cartel, and the other against Jaime Gonzalez 
Castro, a supplier of narcotics from Sonora. In Mexico, 
intermediate appellant courts have issued nonappealable rulings 
that article 4 of the Mexican penal code is mandatory, and that 
the exceptional case exception to the prohibition against 
extraditing nationals applies only when there is no bilateral 
extradition treaty in effect, which is to say that Mexicans 
must be tried domestically, in Mexico, for crimes committed 
abroad. And they may not be extradited when there is an 
extradition treaty between the requesting country, such as the 
United States and Mexico. This is from two intermediate 
appellant courts that really do not have the same precedential 
value as our U.S. courts, but it is an alarming decision.
    In an attempt to have this mandatory article 4 issue raised 
to a higher level and resolved in a manner favorable to our 
bilateral extradition relationship, the Mexican foreign 
ministry and the Office of Attorney General recently sought 
discretionary review of the issue before the Mexican Supreme 
Court in the ``Kitti'' Paez Martinez case. Regrettably, their 
high court refused to exercise its discretion and reached down 
and exercised jurisdiction over this case, and the issue still 
remains unresolved at the highest levels.
    Another disappointment, this one involving two Argentine 
citizens sought by the United States. Again, one of those 
intermediate courts held that fugitives cannot be extradited if 
they face the possibility of a life sentence, something 
mentioned by Ms. Borek, at least they may not be extradited 
without an assurance that such sentence will not be imposed. 
The United States/Mexico Extradition Treaty contains a 
provision for assurances against the death penalty, but no 
similar provision for potential life terms. And I note that 
most of the major narcotics traffickers sought by the United 
States will be facing life sentences for the crimes for which 
they are charged. And we hope that the reasoning of this 
decision, plainly wrongly decided in our view, is not followed 
by any other Mexican court.
    I would like to bring some significant cases to the 
attention of the subcommittee and the status of those cases.
    Two defendants accused of killing law enforcement officers 
in the United States, Agustin Vasquez Mendoza and Rudolfo 
Romero, unfortunately remain at large, despite continuing 
efforts to locate them by authorities on both sides of the 
border. With regard to major Mexican narcotics trafficker, Paez 
Martinez, the Amezcua brothers remain in custody in Mexico, as 
they appeal the orders of extradition entered against them. In 
addition, U.S. citizen, Arizona drug trafficker William Brian 
Martin, who has been successfully manipulating their amparo or 
appeal process, remains in custody where he has been for years. 
Finally, accused murderer Jose Luis DelToro, a U.S. citizen, 
has similarly appealed the issue of his extraditability but at 
least remains incarcerated as this process slowly grinds 
forward.
    I must raise another caution, although the foreign 
ministry, the SRE, has found numbers of fugitives extraditable 
in the past, we suffered a recent setback when the SRE declined 
to find Alfredo Martinez extraditable recently. He is charged 
in a murder case filed in the State of Colorado, accused of 
stabbing his wife to death. Although stabbed 20 times, she was 
still able to utter that Alfredo did this. They denied our 
extradition request at their State Department level, and we 
have received no acceptable rationale yet for this denial. We 
are still seeking that.
    In another discouraging turn, the SRE has recently advised 
that they may automatically transform our extradition requests 
into those domestic prosecutions under article 4. In the past, 
we had always believed that we would be consulted before this 
``flipping'' of our extradition cases into domestic 
prosecutions decision was entered.
    We have been less than enthusiastic about domestic 
prosecutions of nationals for crimes committed abroad, an 
option that many countries try to interpose. As a general 
proposition, we disfavor such domestic prosecutions because the 
costs of transferring proceedings to another country can be 
extraordinary, because evidence gathered in one country may not 
be easily transferrable or accepted with the same weight and 
import in the other country, and because there is enormous 
hardship to witnesses and victims to travel long distances to 
proceedings in another language in another country, and, 
finally, because there is no real finality or sense of justice 
in the community where the crime was committed and the harm 
felt.
    Not being consulted about whether our extradition case 
should instead be processed under the domestic prosecution 
regime in Mexico is a turn for the worse, but we do not 
consider this issue settled, and we will continue to discuss 
this point at the highest levels with our Mexican counterparts.
    If there are other fugitives' cases or extradition-related 
issues of special interest to the subcommittee, we will, of 
course, be happy to supply additional reports, but on behalf of 
the Department of Justice, I thank you all for the opportunity 
to appear today.
    [The prepared statement of Ms. Warren follows:]


    [GRAPHIC] [TIFF OMITTED] T3238.011
    
    [GRAPHIC] [TIFF OMITTED] T3238.012
    
    [GRAPHIC] [TIFF OMITTED] T3238.013
    
    [GRAPHIC] [TIFF OMITTED] T3238.014
    
    [GRAPHIC] [TIFF OMITTED] T3238.015
    
    [GRAPHIC] [TIFF OMITTED] T3238.016
    
    [GRAPHIC] [TIFF OMITTED] T3238.017
    
    [GRAPHIC] [TIFF OMITTED] T3238.018
    
    [GRAPHIC] [TIFF OMITTED] T3238.019
    
    [GRAPHIC] [TIFF OMITTED] T3238.020
    
    [GRAPHIC] [TIFF OMITTED] T3238.021
    
    [GRAPHIC] [TIFF OMITTED] T3238.022
    
    [GRAPHIC] [TIFF OMITTED] T3238.023
    
    [GRAPHIC] [TIFF OMITTED] T3238.024
    
    Mr. Mica. Thank you for your testimony.
    I would now like to recognize Donnie R. Marshall, who is 
the Deputy Administrator of our DEA.
    Mr. Marshall. Chairman Mica, members of the subcommittee, 
thank you very much. I appreciate the opportunity to be here 
today to talk about the importance of extradition.
    Mr. Chairman, as you probably already know, it is an issue 
that I feel very strongly and passionately about.
    I would like, first of all, to thank the subcommittee for 
your support to the Drug Enforcement Administration and drug 
law enforcement, in general.
    With your permission, Mr. Chairman, I have submitted a 
complete statement for the record.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Mr. Marshall. I think that it is very appropriate that this 
committee is focusing on the extradition problem during 
National Police Week, as we have already heard referred to here 
this morning. National Police Week honors law enforcement 
officers who have given their lives in the service of their 
community and of their country. And it is appropriate because 
so much of the crime and violence that we see in this country 
today emanates directly from the drug trade, and that drug 
trade is controlled largely by people outside the United 
States, the very kind of people that this hearing is focusing 
on today. And the work of the subcommittee, I believe, will 
help ensure that those officers and their families that we are 
honoring here during National Police Week did not make their 
sacrifices in vain.
    As you are aware, DEA's primary mission is really to target 
the highest levels of international drug trafficking 
organizations operating today. We recognize that our success 
will continue to be limited until the leaders of these 
international organizations are brought to justice, either in 
their own country or through the extradition process.
    Now the mechanics of the extradition process is really not 
within DEA's purview, but I want to comment that we have seen 
in DEA, time and time again, the thing that international drug 
traffickers fear most is extradition to the United States. And, 
Mr. Chairman, I believe in your opening statement you 
articulated very well some of the reasons why they fear that 
extradition. And for that reason, extradition can be a very 
important tool in our anti-drug arsenal.
    U.S. law enforcement has to be able to attack the command-
and-control functions of the international syndicates operating 
in the world today, which are directing the flow of drugs into 
this country, and I believe that U.S. law enforcement does that 
very well.
    As for DEA, we direct our resources against the leaders of 
the major drug organizations. We seek to have them located, 
arrested, extradited where appropriate, prosecuted, and given 
sentences commensurate with their crimes.
    The international drug trafficking group--a very complex 
and sophisticated group operating out of Colombia and Mexico--
really are very vicious, violent, destructive, rich, and 
sophisticated organizations that operate on a global scale. The 
drugs and the violence which accompany the drug trade have 
really reached virtually every community in the United States--
communities I am sure in your own districts and States. The 
international criminal organizations based largely outside the 
United States control the drug trade from its source, up 
through the Caribbean and Mexico, and on into the United 
States. We can't really understand the drug trafficking 
situation, I believe, today, without looking at the evolution 
of the groups from Colombia and how the groups from Mexico have 
learned from the Colombian groups.
    During the late-1980's and early-1990's, the major 
traffickers from Medellin were investigated, arrested, 
prosecuted by the Colombian National Police and the DEA--and 
expulsions and extraditions actually played a major role in 
those investigations. As those Medellin traffickers were 
immobilized, the Cali traffickers really moved in and assumed 
power that was more or less equal to the Medellin cartel. These 
groups were not as violent, but they were just as corrupting 
and intimidating. The Colombian National Police, however, to 
their credit, and with a lot of heroism by those people, 
continued the intense law enforcement pressure. They focused on 
the Cali leaders, and by 1995 and 1996--and certainly, today--
many, if not most, of the top trafficking leaders from the Cali 
organizations are either in jail or dead.
    But as a result of this, the traffickers from Mexico took 
on even greater significance, greater prominence. In addition 
to their traditional roles as cocaine smugglers and marijuana 
and heroin traffickers, the Mexico-based organizations used 
their strength to emerge as major methamphetamine producers and 
traffickers. This helped make them an even stronger and greater 
force in international drug trafficking.
    Now, the Mexico-based organizations are no longer simply 
middle-men for the Colombians or transporters for the 
Colombians. With the disruption of these Cali groups, the 
groups in Mexico such as the Carrillo-Fuentes' organization, 
the Arellano-Felix organization, the Amezcua, the Caro-Quintero 
group, and others have really consolidated their power, and 
they now dominate the drug trafficking along the United States/
Mexico border, inside Mexico, and in many United States cities.
    These organizations, I believe, reach into the very 
institutions which are intended to fight drugs, as the 
traffickers continue a reign of violence in Mexico and along 
the border with the United States.
    Historically, these and other traffickers in other 
countries and at other times in our history, have had the 
ability to corrupt and intimidate public officials and 
institutions throughout the world. The ability, I believe, of 
any government to attack these organizations is dependent upon 
the existence of honest, dedicated law enforcement 
professionals. And to attain this goal, meaningful anti-
corruption initiatives which lead to sound investigations and 
prosecutions of corrupt officials, must be aggressively 
pursued. And only then, I believe, can we realize success, and 
we will realize that success through an honest cadre of law 
enforcement officials.
    Part of this process, I believe--I believe very strongly--
must be grounded and must be based upon bringing to justice 
those individuals who control large-scale drug trafficking. 
Only through ensuring that these criminals face prison 
sentences commensurate with their crimes, can we make any 
significant progress. In many cases, in countries such as 
Colombia, we have seen that the traffickers are arrested and 
jailed, but they continue to wield influence from their prison 
cells. And despite our many efforts and successes in indicting 
the leadership of these international organizations, too often, 
the drug lords are not apprehended or they are not returned to 
justice to serve sufficient prison sentences.
    The obstacles that law enforcement in Mexico and Colombia 
face are really enormous obstacles, and we shouldn't fool 
ourselves about that. One of the biggest threats to our success 
right now in Mexico is that the traffickers are accustomed to 
operating in an environment free of the threat of extradition, 
free of the threat of meaningful prison sentences, and in an 
environment where they can intimidate, bribe, corrupt, and 
violently retaliate against law enforcement and judicial 
officials and against the systems.
    In order for DEA and our international counterparts really 
to be successful in our efforts, we have to break, I believe, 
that stranglehold of violence and intimidation. And we have to 
address that through aggressive law enforcement, continual 
improvement of criminal justice institutions, and, perhaps most 
importantly, as a prelude to those things, extradition.
    It is my strong belief that the expulsion and extradition 
of the major traffickers from Mexico, many of whom have been 
repeatedly indicted in the United States, would be a strong 
measure of Mexico's success in the counterdrug efforts. But 
more importantly, for the Government of Mexico, the extradition 
of some of these incredibly violent traffickers, particularly 
such as Ramon Arellano Felix, could very well, I think, assist 
in breaking the pattern of violence and intimidation that 
exists in these countries. And it would serve, I think, to 
benefit those dedicated professionals within the Government of 
Mexico, and particularly within the PGR, and give them the 
opportunity to combat these major drug-trafficking 
organizations, similar, frankly, to what was experienced in 
Colombia following some of these major trafficker extraditions 
and expulsions in the 1980's.
    Other notable extradition requests that are currently in 
place--have already been referred to--for the Amezcua brothers, 
who were arrested in 1998 on Government of Mexico charges, but 
recently the Mexican charges have been dismissed for 
insufficient evidence. Both Luis and Jesus Amezcua were 
rearrested and are being held in Mexico, really solely on the 
United States provisional arrest warrants.
    The DEA recognizes that the extradition to the United 
States of these international drug traffickers is not 
necessarily the long-term solution to solving the drug problem 
that exists in our country. But we hope that new initiatives 
and continued cooperative efforts can really enhance our 
ability to combat these major organizations in Colombia and 
Mexico, and really throughout the world. By building 
institutions that sentence traffickers to significant prison 
terms or by allowing extradition of these traffickers to the 
United States, I believe, our international counterparts can 
enhance their potential for success.
    In summary, Mr. Chairman, I believe that extradition is a 
very key essential first step from which a lot of other 
progress and perhaps many other successes could ultimately be 
accomplished.
    I thank you for the opportunity to be here, and I will be 
happy to answer any questions that you have.
    [The prepared statement of Mr. Marshall follows:]


    [GRAPHIC] [TIFF OMITTED] T3238.025
    
    [GRAPHIC] [TIFF OMITTED] T3238.026
    
    [GRAPHIC] [TIFF OMITTED] T3238.027
    
    [GRAPHIC] [TIFF OMITTED] T3238.028
    
    [GRAPHIC] [TIFF OMITTED] T3238.029
    
    [GRAPHIC] [TIFF OMITTED] T3238.030
    
    [GRAPHIC] [TIFF OMITTED] T3238.031
    
    [GRAPHIC] [TIFF OMITTED] T3238.032
    
    [GRAPHIC] [TIFF OMITTED] T3238.033
    
    [GRAPHIC] [TIFF OMITTED] T3238.034
    
    [GRAPHIC] [TIFF OMITTED] T3238.035
    
    Mr. Mica. Thank you, and I do have several questions.
    First of all, Ms. Warren, how many outstanding extradition 
requests for Mexican nationals do we have?
    Ms. Warren. I don't have the number--well, I can find it 
out--of Mexican nationals that are sought. I think it is a 
total of about 275 inactive and active extradition requests 
that we have in total.
    Mr. Mica. And how old do you think the earliest of that----
    Ms. Warren. It can be a couple of decades, some of the 
earliest ones.
    Mr. Mica. Again, we have not had one major drug trafficker 
or drug kingpin extradited; is that correct?
    Ms. Warren. No Mexican national major trafficker; correct.
    Mr. Mica. And they did, however, extradite one individual. 
I guess it was last year? And one this year--a Mexican 
national?
    Ms. Warren. They have extradited----
    Mr. Mica. According to your chart.
    Ms. Warren. Right. They have extradited several Mexican 
nationals over time. One so far this year; three last year; two 
in 1996.
    Mr. Mica. Of those several hundred that we have outstanding 
extradition requests for Mexican nationals, do you know how 
many are in custody in Mexico? And how many are not held?
    Ms. Warren. Forty-seven, total, are in custody in Mexico on 
our extradition requests. I would have to work out the 
breakdown of how many of those are Mexican nationals.
    Mr. Marshall. If I could help on that----
    Mr. Mica. Yes.
    Mr. Marshall. According to my list of traffickers, the most 
important ones that we have the provisional arrest warrants 
for, there are a total of--by my count--about 10 major 
traffickers that are in custody.
    Mr. Mica. Ten major traffickers in custody out of 40 major 
drug traffickers or total?
    Mr. Marshall. I am sorry; I can't give you the total list 
of how many we have requested extradition for, but I have a 
list of what we would consider the major traffickers, and there 
are about 10 of these in custody.
    Mr. Mica. OK.
    Did we ever get a list of all the extraditions?
    If we didn't, we would like to request all of the 
outstanding extradition requests for Mexican nationals. If you 
could provide us with that, we would appreciate that.
    One of the things that concerns me about the process is 
something that you testified to, Ms. Warren. And I appreciate 
your candor in testifying. Particularly, for the first time, 
about the problems we are experiencing with Mexico. That is, 
the delays that are now being employed by drug traffickers--
using the judicial process, both in legitimate appeals, but 
also I am concerned about corruption in this process.
    Maybe, Mr. Marshall, and, Ms. Warren, you might comment as 
to what you see going on here--again, the difficulty in getting 
any resolution to these requests.
    Ms. Warren. It seems to take an inordinate amount of time 
sometimes. We had the very good experience last year of 
Velardes, the killer of the Border Patrol agent, who was 
extradited in a period of 4 months. We have a U.S. citizen, 
William Brian Martin, that we want on major narcotics charges, 
who has played out the system down there for 4\1/2\ years. 
Clearly, his wealth allows him to continue again and again to 
appeal issues. Unlike the United States' system where we must 
consolidate our appeals or forever lose them, they can do them 
seriatim, one after another, and they use the system and abuse 
the system that way.
    Mr. Mica. You seem particularly frustrated by a couple of 
the recent decisions which just seem to fly in the face of what 
should be a just decision, particularly by SRE. Do you think 
there is corruption in the process? And, again, I will also ask 
Mr. Marshall, because I know he monitors some of the situation. 
Or are there legitimate delays?
    It doesn't appear like there is reason or rule of law in 
the decisions. What is influencing these decisions?
    Ms. Warren. We don't really know. I can tell you that the 
SRE has granted the--ordered extradited many fugitives that the 
courts have found not to be extraditable: they have, in effect, 
overruled their courts because their courts' decisions are 
simply advisory opinions in extradition in Mexico. So they have 
really been forward-leaning on Mexican national extraditions 
since 1996, which was the first time Mexican nationals were 
extradited.
    And we were terribly disappointed by what seemed to be a 
step backward in that Martinez decision and have been very 
vocal about our disappointment and I think have caught their 
attention that this is unexplainable to us and hard to 
rationalize in today's world.
    Mr. Mica. Mr. Marshall, what do you see going on?
    Mr. Marshall. Mr. Chairman, we don't have any evidence that 
I know of, in the corruption of the extradition process itself. 
I think that Ms. Warren probably summed it up very well, in 
that most of these traffickers use their wealth to buy the best 
lawyers and to really put legal obstacles in the way.
    My professional judgment is that is probably what is 
happening. However, I will say that we saw in Colombia a number 
of years ago, where the traffickers, when they were jailed in 
their native country, they just continued to run their 
operations. They continued to threaten; they continued to 
bribe. They continued to order retaliation, and that is 
certainly a very real risk as long as these major traffickers, 
with their wealth and power, are in jail in their own country. 
And that is why I was referring to it in my opening statement, 
that it would be so necessary and such a big step forward to 
get them out of that environment, into the United States, to 
break that stranglehold.
    But with regard to your particular question about 
corruption in the process, we have no evidence of that.
    Mr. Mica. Finally, Ms. Borek, one of the major issues, both 
in Congress, and regarding the certification question--2 years 
ago in March, Congress--the House side--asked for cooperation, 
and extradition was one of our top priorities, and it has 
always been something that has been of concern for a number of 
the committees. And Members of Congress have expressed concern 
about extradition.
    Do you know if President Clinton and President Zedillo 
discussed this? Was this brought up by our administration and 
the President when he met with Zedillo in Mexico recently?
    Ms. Borek. I know that law enforcement cooperation across 
the board, and especially in this drug area, is one of the 
highest priorities, also from a State Department point of view. 
And I know it certainly has been discussed at cabinet-level 
meetings. As for that particular meeting, since I am sworn to 
give you only the facts, and I don't know the facts, I would 
like to give you an answer for the record.
    Mr. Mica. Well, we would appreciate that. And if there was 
specific communication on the extradition question that is part 
of any Department of State record or Department of Justice, we 
would like that for the record and will request that in 
writing.
    I would like to yield now to the gentleman from Arkansas, 
Mr. Hutchinson.
    Mr. Ose. Mr. Chairman, I believe my--I think they called 
this an 8-minute vote on the Upton----
    Mr. Mica. They can't do that.
    Mr. Ose. Well, then I must have misread----
    Mr. Mica. That would be against the rule. [Laughter.]
    Go right ahead.
    Mr. Hutchinson. Thank you, Mr. Chairman. Let me make a 
couple of comments, first.
    In reference to the problems of the judiciary in Mexico, 
you addressed the question, Ms. Warren. You suggested that they 
have serial appeals, whereas we have to consolidate them. That 
happened in America because of a legislative initiative to 
solve a problem in the courts. I haven't heard any discussion 
yet about whether President Zedillo and the executive branch 
and the Attorney General of Mexico have urged the legislature 
to change these laws that are allowing the courts to circumvent 
the extradition process?
    Ms. Warren. There has not been any legislative initiative 
in that area. This particular process that is more appeal than 
habeas-like, the Mexican public sees as their most important 
protection against governmental abuse, and the administration 
would probably have a very difficult time making the important 
changes that were made here.
    Mr. Hutchinson. You are talking about habeas, which would 
be applicable, but in reference to one decision, it was based 
upon a construction of the law that was passed by the 
legislature that looked like a misconstruction of it. But 
whenever the courts do that, you can have a legislative remedy. 
You indicate that the Mexican executive branch has not 
initiated any legislative changes that would help solve the 
problem.
    Ms. Warren. That is correct, and we have urged a 
legislative fix, because, in fact, it is a statutory 
interpretation that those courts are----
    Mr. Hutchinson. OK. And at what level have we, in the 
United States, urged a legislative fix?
    Ms. Warren. We have urged it at a lower worker level, but 
we have asked about it at higher levels. This is something I 
can report on personally. I know our Deputy Attorney General 
met with their Deputy Secretary of Foreign Relations and----
    Mr. Hutchinson. Was that with Mr. Holder?
    Ms. Warren. Mr. Holder met with their Deputy Secretary, 
Juan Rebilledo, and asked if there would be a legislative 
initiative.
    Mr. Hutchinson. With all due respect to Mr. Holder--and I 
have a high regard for him--I would suggest that the Attorney 
General of the United States put the pressure on--and I think 
this also should be addressed by the President. This is 
extraordinary. I know that Colombia had some problems in 
extradition, and they, have made some adjustments in their 
legislature because of that. But we have got to put the 
pressure on, not at a working group level, but at a high level. 
The Executive Department of Mexico has the ability, you know, 
to pressure some legislative changes.
    And I think we have got to pressure them to do that. 
Obviously, there is going to be resistance, but I really think 
it is extraordinarily important that we do that.
    Ms. Warren. If I could just say, I don't think there is 
anyone who has been more vigorous about the extradition issue, 
with Mexico or with any other country, than Attorney General 
Reno.
    Mr. Hutchinson. But you indicated that she has not raised 
it, herself, as far as any legislative fix, for this problem.
    Ms. Warren. She has not raised these particular cases. She 
will be meeting, as part of the Bi-national Commission, with 
her counterparts and all the other cabinet members who--or most 
of the cabinet members--in the Mexican cabinet the first of 
next month, and I know it will be an issue on her agenda.
    Mr. Hutchinson. I know these are great international 
complex issues, but it would just appear to me that this is so 
important to our well-being in the United States, that we 
advise Mexico that if they do not take appropriate action, when 
they have the ability to change something and the Executive 
Department has not pursued that, that if they do not pursue 
that and try to remedy that problem, then I don't think they 
are fully cooperating and should not be certified. And that is 
the kind of leverage that the Attorney General and the 
President should communicate.
    We might have a disagreement in that, but I think that is 
the only thing that works, to get that type of attention.
    Ms. Borek, my understanding is the Department of Justice 
makes a request on extradition to the State Department, and the 
State Department actually pursues extradition. Has the State 
Department done anything in regard to requesting the Mexican 
Government to change their laws to allow these extraditions to 
go forward without the judicial interference?
    Ms. Borek. Thank you. I think it is certainly true that we 
work together and closely with the Department of Justice on 
pursing this. These are relatively recent developments, and 
they are not fixed in law, given the nature of the system. And 
they are, therefore, things which we are addressing actively 
with the Government of Mexico, now and in the immediate future. 
There will be a discussion of these issues and----
    Mr. Hutchinson. Has there been any in the past, on the 
issues that I raised?
    Ms. Borek. Well, they have been--they have certainly been 
discussed. Now, you are saying, though, at which level?
    There will be a cabinet-level detailed discussion of these 
issues coming up at the next regularly scheduled meeting, and 
there is no question that we share the objective of ensuring 
that there is an effective extradition process here.
    Mr. Hutchinson. And it is going to take a legislative 
change; otherwise, you are going to be blocked by the courts.
    Ms. Borek. Well, I would let Ms. Warren speak to that. 
Obviously it is, in principle, the easiest solution. Sometimes, 
however, given the nature of legislatures and in particular 
countries, it is not the most--the easiest solution to achieve. 
And I think our interest is in seeing this problem fixed in the 
most expeditious way.
    Mr. Hutchinson. Let----
    Ms. Warren. There is still a chance before their courts to 
fix this as well. If another appellate court decides otherwise, 
then they will have a conflict. It will go, not as a 
discretionary matter, but automatically to their Supreme Court, 
to resolve this issue.
    Mr. Hutchinson. Well, you work both tracks.
    Ms. Warren. Exactly.
    Mr. Hutchinson. I mean that is a possibility, but also the 
executive branch, if they have that desire, they should submit 
legislation to correct that.
    Ms. Warren. It is going to be clear that it is not just one 
track.
    Mr. Hutchinson. True. Right now, we have one track going; I 
want to go two tracks; that is what my suggestion would be.
    Has there been any problem, from a Justice Department 
standpoint, with the State Department in regards to their 
efforts in securing extradition after you certify?
    Ms. Warren. Absolutely none.
    Mr. Hutchinson. That is all.
    Mr. Mica. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Ms. Borek, on page 3 of your testimony, the final decision 
on whether a fugitive will be extradited from the United States 
is made by the Secretary of State?
    Ms. Borek. Yes, sir.
    Mr. Ose. How many requests for extradition of fugitives in 
the United States have been granted by the Secretary of State 
in the last year?
    Ms. Borek. I would have to get you an exact number on that. 
I might say the other side of it, which is extradition requests 
are inevitably granted by the Secretary of State, unless there 
is some very serious problem about, generally, of a 
humanitarian nature concerning conditions that the person might 
be facing, or something along those lines. So, although there 
is this discretion, in fact, it is more a question of having an 
opportunity to consider and work through any concerns that are 
raised, and in the end--at least in the time that I am aware of 
this--we have always granted extradition.
    Mr. Ose. Well, that brings me to my followup question, 
which would be, how many have been denied?
    Ms. Borek. As I say, in the time that I am aware of, there 
have been a number of cases in which there were issues about 
conditions or so forth, that we were able to resolve through 
assurances with the other government. We have not denied 
extradition requests.
    In fiscal year 1997, we surrendered 100 persons. In 1996, 
105. That seems to be roughly the range, although the increase 
I think in transnational criminal activity and also extradition 
treaties and requests is really exponential.
    Mr. Ose. Is there a tracking on your numbers from 1997 or 
1996 as to how many fugitives in the United States were 
extradited to, say, Mexico?
    Ms. Borek. I think we have those statistics here.
    Now this is on a calendar basis, so there is some 
discrepancy. What I was giving you before was on a fiscal year 
basis. But we have, in 1998, 15 extraditions from the United 
States to Mexico. In 1997, 21; in 1996, 16; and then in 1995, 
14.
    Mr. Ose. Do you have any information as to how many 
requests for extradition in those years were made by the 
country of Mexico, as opposed to the number of extraditions 
granted?
    Mr. Mica. Mr. Ose, I think we have less than 5 minutes on 
this vote now, so we do need to recess. We will come back; we 
will be at least 15 minutes. So about 3:30--we will recess 
until then, and you may continue.
    [Recess.]
    Mr. Mica. Call the subcommittee back to order, and I would 
like to yield back to the gentleman from California, Mr. Ose, 
for questions.
    Mr. Ose. Thank you, Mr. Chairman.
    I want to make sure I finish my line of questioning 
earlier. And perhaps you have had some time to dig some 
information up.
    In terms of the number of requests made of the United 
States to extradite fugitives here in the United States, in 
1997, it was 100, and in 1996, it was 105. And then the 
followup question was, how many of those requests for 
extradition, for instance, came from Mexico?
    And, if--I don't recall the answer to that.
    Ms. Borek. Thank you. Let me preface this by saying that 
our various recordkeeping systems are really case management 
systems, and they are not very well geared to producing 
statistics.
    In the case of incoming Mexican requests, we don't really 
have comprehensive, automatic statistics on that. However, I 
think it is a little bit misleading to look at requests, 
because sometimes a provisional arrest request is made on the 
chance that somebody is somewhere, or they might be there and 
then they might leave, and that is counted as a request. So 
without looking at the sort of requests, whether they are 
active and the quality of the information involved, sometimes 
it is not a complete picture.
    The general--the number of 100 is the number of people that 
we actually extradited throughout the world in 1997 and----
    Mr. Ose. From the United States to other countries?
    Ms. Borek. From the United States to other countries.
    Mr. Ose. OK.
    Ms. Borek. And 105 in 1996.
    I understand that the general order of United States 
requests to Mexico is 30 to 40 a year, that the general order 
of requests from Mexico to the United States is actually 
higher. However, as I say, some of these requests might be for 
people when it is not clear that they are in the United States 
or we might find that the request did not meet the requirements 
of the treaty. This could happen, also, in the case of our 
requests.
    So looking at just the bare number of requests probably 
doesn't give you a very solid picture of what is going on.
    Mr. Ose. Well, lacking any other standard, how much higher 
do you suggest was the number of requests from Mexico to the 
United States?
    Ms. Borek. I don't think I would want to speculate. We 
would have to compare the Justice and the Department of State 
records on that.
    Mr. Ose. Mr. Chairman, is it possible to submit a question 
for the record.
    Mr. Mica. Oh, no problem. I can do that.
    Mr. Ose. All right.
    The other----
    Mr. Mica. We will leave the record open.
    Mr. Ose. The other question--I have two more questions, if 
you will, please, Mr. Chairman.
    You cite in the testimony--in particular, Ms. Warren--the 
person known as William Brian Martin. I am curious, he is a 
fugitive from the United States we believe to be in Mexico?
    Ms. Warren. No; he is a U.S. citizen.
    Mr. Ose. Correct. He is a United States citizen, fugitive 
from justice, we believe to be in Mexico?
    Ms. Warren. He has been arrested and is in jail, and has 
been----
    Mr. Ose. He is incarcerated in Mexico?
    Ms. Warren [continuing]. On our extradition request.
    Mr. Ose. OK.
    And the lack of ability to have the appeals consolidated, 
as opposed to in a series, one after the other, is the 
impediment?
    Ms. Borek. He has sought to delay his review at every 
possible turning. He delayed the review from the trial court to 
the first appellant court, and now he has taken an appeal to 
their Supreme Court on the constitutionality of the extradition 
treaty.
    Mr. Ose. OK. The reason I bring that up is that we have a 
list of countries with whom we do not have an extradition 
treaty, and the question arises in my mind as to the 
circumstances under which we would have a discussion with these 
countries about establishing an extradition treaty and the 
provisions thereof, as they would relate to American citizens 
who might flee the United States and end up residing in these 
countries, and the laws that would apply to them for 
extradition.
    It would seem to me that if we can, since they are not 
nationals of those countries, that we should be able to 
negotiate with these other countries about the rules under 
which American fugitives would be returned to the United 
States. Now, is that part of the deliberation that the 
Department of Justice--excuse me--is that part of the advice 
that the Department of State receives from the Department of 
Justice on this?
    Ms. Warren. The Department of Justice and State really 
collaborate on those issues. I guess, yes. Maybe Ms. Borek 
can----
    Ms. Borek. I think we have difficulties with any country 
where the limitations are constitutional. This is also the case 
in the United States. If you have a constitutional right, and 
there are constitutional rights that apply in the extradition 
process, that protect non-citizens as well as citizens in that 
context. Now there is a great deal of latitude, additional 
latitude, in the area of expulsion and deportation if you are 
dealing with American citizens. And we do try to take advantage 
of that way of getting Americans back to the United States in a 
more expeditious way.
    However, some of the problems that we are looking at here 
are constitutional or they have to do with internal civil 
rights. It is hard to get them to adopt--nor would we adopt, in 
many cases, a completely different standard for an alien.
    This is, I think, the problem with the amparo process--that 
as a general matter and having nothing to do with extradition--
it is regarded by the population as a major bulwark of the 
individual human rights. They don't have the same kind of 
refined constitutional rights system that we have. And, 
therefore, although it is a very blunt instrument and it has a 
lot of difficulties, it is very much respected as a civil 
rights and a human rights protection, and that makes it 
difficult, just as a general matter and outside the extradition 
context.
    Mr. Ose. Well, that begs the question I have been trying to 
get to, and that is, what are the standards that the Department 
of Justice uses in evaluating whether or not a country is 
cooperating on an extradition?
    It would seem to me that the extension of their laws to 
people who might have entered their country illegally, under 
the Amparo regime, would be frustrating, to say the least, to 
our lawful authorities. And if that is something we can use in 
their evaluation, as to whether or not we have a country that 
is eligible for full certification, I would like to know about 
it.
    The question really is, is that something that the 
Department of Justice uses in evaluating whether a country is 
eligible for full certification?
    Ms. Warren. Just in terms of the Department of Justice's 
review of the various certification criteria, ours is a factual 
review, so that we can provide advice to the Secretary of State 
and on to the President who, alone, makes the certification 
decision. We do look at extradition, but not solely to one 
particular facet of the law enforcement relationship, but all 
parts of it.
    For example, in Colombia, we have not had an extradition 
since 1991, yet the passing of the extradition law, although 
restricted and not retroactive, was a good sign, and the 
President fully certified Colombia. Extradition was a 
consideration there.
    To the Department of Justice, extradition is a very 
important criterion in our relationship beyond certification, 
just across the board and about how we get our fugitives back 
to this country to be tried in our court.
    Mr. Ose. Well, as it relates to Mexico, the empirical data 
you gave us indicates that, in fact, we have had a decline in 
the degree of cooperation on extraditions since--well, we did a 
very good job stepping up from 1995 to 1996----
    Ms. Warren. And then it plateaued.
    Mr. Ose [continuing]. And maintained it pretty well those 3 
years, but I have to say, the first 4 months--fully a third of 
a year--we have reduced that by about 50 percent.
    Ms. Warren. No, and so far in 1999, we have not kept pace.
    Let me just, if I may, also remind of the 30 deportations 
that we had. That was very important last year, in terms of 
returning fugitives.
    Mr. Ose. And I would--I am trying to get to the point where 
I commend you for that. So I appreciate you beating me to the 
punch on that.
    Do you think this degree of extraditions is sufficient to 
qualify for full certification?
    Ms. Warren. I won't respond in a certification context. We 
are disappointed at the moment in the rate of extraditions and 
in that extradition relationship. So, too, are the Mexicans, 
particularly those who we work with most directly in the Office 
of the Attorney General. The problems in the courts are 
frustrating them as much as they are frustrating us, of course.
    Mr. Ose. Mr. Chairman, my time is up. I thank you for your 
generosity.
    Mr. Mica. Thank you.
    The gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    With regard to the chart on page 14, Ms. Warren, the number 
of Mexican nationals extradited on drug charges--the one in 
1999, I presume that is Velardes?
    Ms. Warren. In 1999?
    Mr. Barr. In 1999.
    Ms. Warren. It appears in 1999 it is Velardes Lopez.
    Mr. Barr. OK; that is what I said.
    So aside from him, there have been no extraditions of 
Mexican nationals to the United States on drug charges this 
year. There was only one in 1998--and your footnote notes, I 
presume, accurately--that that person was extradited 
principally for the murder of a United States Border Patrol 
agent, not so much for drug trafficking.
    How many Mexican nationals are extraditable to the United 
States on drug charges?
    Ms. Warren. I can, with a little counting, I will be able 
to give you the number of those who have been found 
extraditable by Mexico, but their cases are either still in the 
courts on appeal or----
    Mr. Barr. How many do we consider extraditable?
    Ms. Warren. We have sought the extradition of an enormous 
number so we would consider--we wouldn't seek their extradition 
if we didn't believe they shouldn't be extradited.
    Mr. Barr. So it is a very high--I mean, dozens?
    Ms. Warren. Dozens, and we have set certain priorities. 
Deputy Administrator Donnie Marshall testified about the DEA's 
priority.
    Mr. Barr. I mean we have this huge gulf between the number 
of Mexican nationals that are extraditable from our standpoint 
on drug charges, and, aside from this one fellow who was 
extradited this year in May on the escape, and so forth, I mean 
none have been extradited. That is pretty distressing.
    How much aid does the United States receive from Mexico?
    Ms. Warren. I know of none, but----
    Mr. Barr. How much asset forfeiture proceeds does our law 
enforcement receive from Mexico?
    Ms. Warren. At the moment--just recently their law has 
changed. Their law did not provide for sharing with other 
countries. Their law will now allow for that, and we will----
    Mr. Barr. How much aid does Mexico receive from the United 
States--economic assistance?
    Ms. Warren. I don't know that.
    Mr. Barr. Does the State Department know?
    Ms. Borek. The State Department can provide you with that 
answer.
    Mr. Barr. The State Department doesn't know?
    Ms. Borek. Well, the State Department Office of the Legal 
Adviser doesn't know. [Laughter.]
    Mr. Barr. Fair enough.
    Does the United States--I mean does Mexico receive economic 
assistance from the United States?
    Ms. Warren. Yes.
    Mr. Barr. I suspected as much.
    Does Mexico receive asset forfeiture proceeds from the 
United States?
    Ms. Warren. They have received $6 million from the United 
States and more is currently in the----
    Mr. Barr. Would we be giving them more of this stuff if 
they extradite even fewer people to the United States? I mean 
we seem to be rewarding them for doing nothing.
    Ms. Warren. The purpose of the sharing of the assets is, as 
they participated in the investigation, or assisted in the 
forfeiture of the assets. We like to encourage that, as well as 
encourage extradition.
    Mr. Barr. I mean it seems to me that this is all one way. 
We give Mexico substantial foreign aid; Mexico receives 
substantial sums in asset forfeiture proceeds--[laughter]--a 
balance of trade, similarly. Yet they--aside from this one 
person this year, and one person extradited last year, 
primarily on other charges--Mexico has extradited none of their 
nationals to the United States on drug charges.
    Something just doesn't match up here.
    Would it be fair to say that when the President of our 
country meets with the President of Mexico, he can raise 
whatever issues he wants with them? Are there any legal 
treaties limiting the issues that the United States President 
can raise with the President of Mexico?
    Ms. Warren. No.
    Mr. Barr. I didn't think so.
    Why don't we make the furnishing of assistance? Why don't 
we make the furnishing of asset forfeiture proceeds contingent 
on Mexico lifting its little finger and extraditing some of its 
nationals to this country on drug charges, insofar as there are 
literally dozens of Mexican nationals who would fall into the 
category of extraditable to the United States on drug charges?
    Ms. Warren. I would like to say, just to point out, that 
they--at least the foreign ministry there--has found important 
Mexican national drug traffickers extraditable to the United 
States. Those individuals continue either to appeal the rulings 
or are serving sentences in Mexico at this time, but there are 
some that have been found extraditable, and we are awaiting 
their surrender to the United States.
    Mr. Barr. Mr. Marshall, do you and your drug agents feel 
satisfied with that? I mean, does that make you feel that 
everything is being done that is being done, because Mexico 
recognizes some of these people, but they won't extradite our 
extraditable? And that there are some sitting in Mexican 
prisons?
    Mr. Marshall. Well, Congressman, we are quite disappointed, 
and I think that you heard some of my testimony about how 
deeply I feel about the importance of this issue. And I have to 
say I am quite disappointed. And I think that a lot more 
progress could and should be made in this area.
    Mr. Barr. Is it true that in 1997, we provided 72 Hueys--
helicopters to the Mexican Army to fight drugs?
    Ms. Warren. I don't know the----
    Ms. Borek. I am informed that in the 2 years 1996 and 1997, 
we provided 73, total.
    Mr. Barr. It must be more than I thought, and I thought it 
was 72.
    Ms. Borek. One crashed. [Laughter.]
    Mr. Barr. Can you explain that rationale--if there is any 
rationale--between providing that number of Hueys to Mexico 
with the poor record of cooperation and assistance they have 
provided us? And yet we have to, you know, beg, borrow, and 
steal for years to try and get helicopters provided to Colombia 
for General Serrano, for example?
    I mean, what is it that Mexico is doing that is so 
outstanding that they are given these, you know, tremendous 
resources, in addition to all of the economic assistance, drug 
proceeds, and everything? I mean I am just--it seems as if we 
are rewarding them for slapping us in the face.
    Ms. Borek. Let me comment on that, generally.
    In terms of the drug cooperation effort, very often the 
highest priority that we have is to encourage national measures 
of investigation, enforcement, interdiction, eradication, and 
to try to strengthen national mechanisms, which may have a lot 
of problems. They may be ill-trained; there may be corruption. 
They may be just underdeveloped. Certainly at the moment, I 
think it is true to say that extradition has emerged as a very 
serious issue and one that we will have to look at and raise at 
the highest levels in the country----
    Mr. Barr. You make it sound like all of a sudden there is a 
dilemma on the State Department.
    Ms. Borek. Well, there is; in terms of extradition, there 
have been changes in the recent past. We had a situation where 
they would not extradite nationals at all. Now, they are not 
the only country that refuses to extradite nationals, and there 
was a tremendous amount of pressure brought, and the SRE agreed 
to--really, there was a breakthrough in terms of agreeing to 
take advantage of this possibility of extraditing nationals in 
extraordinary circumstances, and that worked, and that was 
working.
    And, then, there were a series of what are really judicial 
setbacks, and now we have the issue, which I think was 
discussed earlier, that there is a possibility of legislative 
remedy, and there is a possibility of judicial remedy here, and 
we certainly need to address it very strenuously.
    But the--in the asset forfeiture----
    Mr. Barr. How about having our President address 
strenuously, as opposed to working level discussions?
    Ms. Borek. The next level of discussion is at the cabinet 
level, and it is on the agenda for that level of discussion.
    Mr. Barr. Would anybody disagree that one of the things--
perhaps ``the'' thing that these drug traffickers--whether they 
are from Colombia or Mexico--fear more than anything else is to 
be extradited to this country, because they know that when they 
get up here, they will receive a lengthy, mandatory prison 
sentence?
    Mr. Marshall, is that about as creditable a threat as we 
have? And if that threat isn't present, then----
    Mr. Marshall. Congressman, yes, sir; you are right on 
target with that. And we saw in Colombia, where the Colombian--
the Medellin cartel--back in the 1980's, had the country of 
Colombia and the government and government officials so wrapped 
that, basically, they operated with impunity there. Even when 
they were jailed they ran their drug empires and they 
threatened and bribed and intimidated from their very jail 
cells. And only when we managed to get a few of them expelled 
and extradited, beginning with Carlos Lehder in 1987, did we 
break that pattern. They feared it so much that they entered 
into, then, a campaign of terrorism and violence. They even 
blew an Avianca airliner out of the sky and claimed credit for 
it, in protest of the extradition.
    So I think that, yes, that is the thing that they 
absolutely fear most, and in a situation like this, it is our, 
I think, absolute most valuable tool, at least as a first step, 
that could possibly be applied.
    Mr. Barr. Thank you, Mr. Marshall.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    A couple of questions; the Governor of Quintana Roo, the 
Yukatan Peninsula, recently fled, just before the end of his 
term. We were informed, when we took our subcommittee and other 
Members of Congress down to Mexico to meet with officials, that 
one of the reasons for not going after him is, I guess, the 
incumbent official had some immunity from prosecution while he 
was in office. That he had some extra status, and he was 
going--they were going to go after him afterwards. But we have 
known that, with that sort of narco-terrorist state that is 
corrupt from the bottom to the top in Quintana Roo and the 
Yukatan Peninsula.
    Has he been indicted in the United States? Do you know?
    Ms. Warren. He has not.
    Mr. Mica. Do you know if there are any plans to go after 
him?
    Ms. Warren. That I could not comment.
    Mr. Mica. Mr. Marshall.
    Mr. Marshall. At the present time, we have no plans. We are 
trying to assist, to the degree that we can, the Mexican 
Government in locating him. But as far as I know, there are no 
plans for indictment in the United States. Not to rule that out 
for the future, perhaps, but not at the present.
    Mr. Mica. I raise that because it seems like he is such a 
high-profile individual, if he were indicted in the United 
States, and a request for extradition certainly for the death 
and destruction he has brought, not only in his own state, but 
also to the United States, has to be immense. And everybody has 
known what was going on there.
    We heard some questions by Mr. Barr about assistance, and 
certainly we negotiate trade. And Mexico has gotten some 
incredible trade assistance from the United States--benefits 
from NAFTA, the collapse of their financial markets when we 
underwrote financing of their currency in a very difficult 
time.
    Do we ask for any conditions? Or, as we negotiate these 
various treaties, do you know if the drug issue and extradition 
are raised at all in those negotiations, Ms. Borek?
    Ms. Borek. To my knowledge, NAFTA was negotiated on the 
basis of mutual interests in the trade area. It was negotiated 
not on the basis that that was an assistance program for 
Mexico, but on the basis that it was in the interests of the 
United States.
    Mr. Mica. Do you go beyond extradition? Are you involved in 
other treaty negotiations?
    Ms. Borek. I am telling you what I understand. I am not 
responsible for the NAFTA----
    Mr. Mica. Yes, but do you go beyond that in your work? Or 
are you just covering extradition issues?
    Ms. Borek. I cover a number of other subjects besides 
extradition. Economics is not one of them.
    Mr. Mica. Well, I am just wondering if, at any level, 
extradition is made a topic of discussion or condition in any 
of our treaty negotiations with Mexico or----
    Ms. Borek. Extradition is, I think, probably not--and this 
is a ``probably'' I would say--is probably not made a condition 
in general treaty negotiations. It is extensively and 
intensively discussed within the law enforcement cooperation 
context, and it also figures on general agendas for high-level 
discussions. And usually, the Secretary of State, for example, 
is not involved in treaty negotiations, but she regularly does 
raise the question of law enforcement cooperation and 
extradition which, as I say, is, I think, at the moment, a 
particular focus of attention with the Government of Mexico.
    Mr. Mica. But you can't site any high-level discussions or 
written communications in which the topic of extradition was 
raised?
    Ms. Borek. I think we could give you a summary of, I think, 
some of the law enforcement and extradition subjects that have 
been raised over a period of time. We could give you that.
    Mr. Mica. But I mean outside of the context of the question 
of law enforcement, it is not raised in any other context. I am 
trying to get to what Mr. Barr was talking about, the various 
benefits that accrue to Mexico from the United States through 
treaties, agreements, international finance, and trade. Any 
contacts from the highest levels, or in these treaties, is 
there anything we can point to that might mention this?
    Ms. Borek. I think it is not expressed as a condition, for 
example, in a treaty negotiation. I think it is clear and it is 
repeatedly expressed as an important essential part of our 
overall bilateral relations, and that has implications across 
the board for all issues. I think it has been raised in that 
context repeatedly by high-level Department of State officials.
    I think in the diplomatic area, the level and frequency 
with which an issue is raised is one of the important 
indicators that a government takes it seriously. And we can 
certainly give you a summary history of efforts that we have 
made to impress upon the----
    Mr. Mica. I would like to see anything in writing for the 
past couple of years. We will make a note of it; we will make a 
written request.
    I understand, also, that through the Department of State 
and through our various embassies that there is established a 
priority list for the embassies and for their goals and 
objectives. Are you aware of where extradition might be, or if 
it is on the list of priorities for the Mexican Embassy, United 
States?
    Ms. Borek. Yes, it is very definitely one of our highest 
priority issues with the Government of Mexico.
    Mr. Mica. And it is on their priority list?
    Ms. Borek. It is on our priority list, the U.S. Embassy's, 
it is right up there with trade and other essential bilateral 
interests.
    Mr. Mica. All right, and if you have a copy of anything 
written, as far as their priorities, we would also like to have 
that for the record.
    Has the United States/Mexican High-level Contact Group ever 
offered Mexico a formal bilateral maritime agreement, to your 
knowledge?
    Ms. Borek. To my knowledge, no; it has not been raised at 
that level.
    Mr. Mica. Ms. Warren, do you get involved in that at 
Justice?
    Ms. Warren. We are involved in some of the maritime 
agreements and assistance at the time of negotiations, but I 
know of no work done with Mexico thus far.
    Mr. Mica. Are you aware of any efforts by our Government 
to--because when we were in Mexico, we also were criticized for 
not offering a maritime agreement, and it hadn't been part of a 
High-level Contact Group discussion?
    Would it be possible--I don't know if you could make this 
commitment, Ms. Borek, but maybe we could ask you to call that 
to the attention of the Secretary of State and maybe the high-
level working group as an agenda item.
    The Congress passed, 2 years ago in March, a resolution 
requesting certain actions by Mexico--the House of 
Representatives did. One of the first items of about five or 
six was extradition. I believe the second or third was a 
maritime agreement. I know that sometimes the administration 
doesn't pay much attention to what the Congress would like to 
see, but it happened to be the current speaker's bill that did 
pass in resolution, and I think we are going to try to find 
some way to get a maritime working agreement with Mexico. I 
thought maybe we could get your cooperation on that?
    Ms. Borek. I might say that although it hasn't been raised 
in that context, I think it certainly has been raised. And it 
is interesting that you say it that we were criticized for not 
having offered that. That certainly is a nice opening, because 
I think we are interested in such an agreement.
    Mr. Mica. All I can do is tell you what they told us. We 
get down there--especially me--[laughter]--at some personal 
peril--[laughter]--or infliction of abuse to hear their side of 
the story, but also to try to work with them and find some 
agreements. And certainly we do give economical and financial 
assistance, trade assistance, and almost open commercial 
borders, and incredible financial backing. Yet, it doesn't 
appear that some of these issues relating to stopping the flow 
of illegal narcotics into our country, which are costing us 
billions, are addressed, and it is a major concern.
    We are going to figure out a way to get folks' attention on 
it, too.
    Mr. Marshall, has DEA ever recommended to the Justice 
Department or to any other Department that economic cooperation 
be conditioned on extradition?
    Mr. Marshall. I am not sure that we have made a formal 
recommendation in that regard. That is really kind of a 
political process that is outside the expertise of law 
enforcement.
    Mr. Mica. Is there anything outside of the negotiations as 
far as law enforcement to law enforcement agency requests, to 
your knowledge, that DEA has said that we should look beyond 
just these simple requests and try to get some leverage to 
elicit action from the Mexicans?
    Mr. Marshall. In a formal manner, not that I am aware of, 
Mr. Chairman.
    Mr. Mica. What is the response the DEA Administrator has 
received from the Mexican Attorney General or other Mexican 
officials when he sought to promote the extradition issue?
    Mr. Marshall. Well, we deal with the PGR, and I think that 
the PGR--the reception that we have gotten among those 
officials, including Mr. Herran, Mr. Ibarolla, and Attorney 
General Madrazo I think has been very favorable. I think that 
they have a genuine interest and a genuine desire to work 
toward solving the extradition problem.
    I am not sure that the problems that we are encountering 
emanate from the PGR. I think they emanate perhaps from other 
elements such as the judiciary, perhaps the SRE.
    So the reception with our own counterparts has been good, 
but it hasn't resulted in actual extraditions, as we would like 
to see.
    Mr. Mica. I have been here in Congress for almost 7 years 
and helped write the certification laws as a staffer back in 
the 1980's when I worked down in the Senate. The only time we 
see any movement from Mexican officials and others--countries 
who have severe narcotics production and trafficking problems--
is just before the question of certification comes up.
    Now, Mr. Gilman and I introduced a bill that extends the 
decertification bill for Mexico indefinitely until we come up 
with a solution to deal with the problems we are facing with 
Mexico. Short of decertification, I ask each of you to respond, 
is there any legislative fix, or is there anything the 
administration can do to try to elicit additional cooperation, 
whether it be on extradition, a maritime agreement, or anything 
else to help us get a handle on this serious problem? And, as 
you all know, more than 50 percent of the illegal hard 
narcotics coming into this country are now trafficked through 
and produced in Mexico, with an increase in heroin production. 
It is a long question, but maybe you have a short answer of 
anything you think we can do legislatively or the 
administration can do, short of decertifying Mexico?
    Ms. Borek, any ideas?
    Ms. Borek. I can't say anything new. And I would say that 
the----
    Mr. Mica. You have all the legislative tools you need--
legal and otherwise--anything that we could do, again, to help 
elicit a little more cooperation? Something we are doing wrong?
    Ms. Borek. I think the----
    Mr. Mica. We are too nice?
    Ms. Borek [continuing]. Certification statute is a very 
powerful tool which focuses attention very well, in general 
terms, on the problems that we are looking at, at the moment. 
At this exact moment in time, I wouldn't say that there is a 
clear legislative tool. I wouldn't say that could not be true.
    Mr. Mica. Ms. Warren.
    Mr. Barr. Excuse me, Mr. Chairman; I might have 
misunderstood.
    Mr. Mica. Yes.
    Mr. Barr. Did you say that the certification process is a 
great tool?
    Mr. Mica. Yes. Yes, we have that on the record. [Laughter.]
    Ms. Borek. I think I said ``powerful.''
    Mr. Mica. Powerful.
    Mr. Barr. Powerful for who? I mean is Mexico a fully 
cooperating partner in the war against drugs? With extradition 
statistics--[laughter]--like these, in your opinion?
    Ms. Borek. I think the statistics you are looking at are 
for this year, and I think----
    Mr. Barr. Oh, heaven forbid. [Laughter.]
    Ms. Borek. Well, I think the----
    Mr. Barr. Whether you look at this year or 1998, 1997, 
1996, or 1995, they are a bunch of zeros.
    Ms. Borek. There is no question that they did not extradite 
nationals before 1996.
    Mr. Barr. What I am saying--what?
    I am sorry, Mr. Chairman. I mean it is just ludicrous I 
mean to have witnesses sit here and tell us that, you know, 
this is a great tool.
    It might be a great tool if it were utilized properly, but 
with statistics like these, it is a laughing--you know, it 
makes people laugh.
    Mexico isn't cooperating with us. Have they--do they 
cooperate, Mr. Marshall, with DEA to the extent that you have 
the tools and the cooperation that you need from Mexico from 
the Mexican law enforcement and military and government?
    Mr. Marshall. There are some core groups that we get good 
cooperation from. Overall, the law enforcement results have not 
been encouraging, and it has been quite disappointing.
    Mr. Barr. I mean how can the State Department sit there and 
say that this is a great and powerful tool? I mean you ought to 
at least be honest with us that it isn't. I mean the chairman 
is giving a tremendous opportunity here. Are there some things 
that we could be doing? And all you come back with and say, 
``Oh, you know, this is a great and powerful tool.'' They 
aren't cooperating; they are not giving us the tools, the 
cooperation that we need. They are not extraditing people on 
drug charges. In what sense is this a powerful tool?
    Ms. Borek. I think you can't----
    Mr. Barr. They are laughing at us.
    Ms. Borek. If you are looking at the whole history of 
cooperation with Mexico, you can't only look at extraditions. I 
think what has been viewed as important--and I defer to the 
Department of Justice and DEA on this--is to try to strengthen 
institutions across the board and to find the most effective 
way to do that.
    There is no question that the certification of Mexico has 
been controversial, and that is part of what I think points to 
the fact that the certification process is a real process and 
people do take it seriously. I think, obviously----
    Mr. Barr. Who takes it seriously?
    Ms. Borek [continuing]. There have been differences of 
opinions about Mexico.
    Mr. Barr. Why should Mexico take it seriously? They are not 
providing us the tools; they are not providing the cooperation, 
and yet they are certified. They are the ones that get millions 
and millions of dollars in assistance. They get millions of 
dollars in asset forfeiture, and we are not demanding anything 
of them in return. How is that a powerful tool?
    I know that is a rhetorical question because you think it 
is a powerful tool, but I think that is an absurd position to 
take.
    I am sorry, Mr. Chairman; I interrupted you.
    Mr. Mica. Ms. Warren, did you want to respond?
    Ms. Warren. I wanted to offer some legislative suggestions 
as part----
    Mr. Mica. Go right ahead.
    Ms. Warren. As part of the announcement of the crime bill 
yesterday, one of the provisions that the administration is 
suggesting would be to bar Federal prisoners from getting 
credit for the time spent abroad fighting extradition. That 
might get someone like William Brian Martin to the United 
States faster if he knew he was not going to get any kind of 
credit for the 4\1/2\ years that he spent spinning out the 
extradition process in Mexico.
    There are other suggestions that may seem minor but are of 
great moment to State and local jurisdictions. The cost of an 
extradition can wipe out a local budget--the translations and 
the cost of putting a package together. Have a fund to help 
assist them in that. And those are some of the suggestions that 
we are offering.
    Mr. Mica. Mr. Marshall.
    Mr. Marshall. Mr. Chairman, I think that certification can 
be a powerful tool, and I think we saw that it was a powerful 
tool when applied to Colombia. And I think that it, perhaps, 
gave some of the initiative to make some progress in that 
country. I am a strong supporter of the certification process, 
and I agree with some of your comments and some of Congressman 
Barr's comments, that really we need to apply it across the 
board. That is what is was designed for, and, when applied 
properly, I think it can be a powerful tool.
    Mr. Ose. Mr. Chairman.
    Mr. Mica. Mr. Ose.
    Mr. Ose. If I understand correctly from Mr. Barr's 
question, we have 72 operating Hueys in Mexico? And we have 
sent Blackhawks--are they still there--to the Army for drug 
interdiction; is that correct?
    And we also have six Blackhawks we sent down to Colombia 
that, just last month, participated in busting--if I recall, I 
think in your testimony--there is a 7-square-mile cocaine 
processing facility?
    Mr. Marshall. Yes, it was one of the largest in terms of 
area processing facilities that we have ever seen down there. I 
don't recall the 7 square mile description, but it was quite a 
large processing complex.
    Mr. Ose. Well getting back to the chairman's request about 
how we can make this work better, are we placing restrictions 
on the use of the Hueys or the Blackhawks? Or are we not 
utilizing them properly? Is there training we could do? I mean, 
what would be the consequence, for instance, of having 12 
Blackhawks in Colombia? Would we affect the price and purity of 
coke here on the streets of the United States?
    The way I look at it is boil it down in the number of lives 
saved.
    Mr. Marshall. I would have to say, Congressman, that with 
regard to the helicopters in Colombia, there have been some 
differences in times past about the way those helicopters were 
used--differences between the State Department, INL, and 
differences between DEA. We were concerned at one time that the 
helicopters were used exclusively for coca eradication at the 
expense of heroin, opium poppy eradication and law enforcement. 
Those disagreements have been, for the most part, worked out, 
and we are beginning to see some poppy eradication.
    Now with regard to impact on the price and purity and 
availability, that is really a difficult, almost impossible 
question for me to answer. There are perhaps other experts in 
the intelligence community that could do a better job of this, 
but I think it is real difficult to say what it would take to 
affect the price and purity, particularly with regard to 
cocaine, because the cultivation areas are so vast in so many 
countries and can shift fairly dramatically and rapidly.
    In the case of the opium poppy in Colombia--and as you 
probably know, Colombian heroin probably accounts for about 60 
or 70 percent of the total heroin seized in the United States 
now. But with regard to that opium poppy cultivation in 
Colombia, it is confined to a reasonably small area, and 
reasonably easily reachable. And we believe that if we work to 
focus in a very concentrated, a very intense way, on the opium 
poppy eradication, that perhaps in that one instance that that 
could result in some impact on the availability.
    Mr. Ose. So your last comment seems to suggest that there 
is a connection between our ability to eradicate and the 
availability of supply and price in the United States? It is 
not direct, but perhaps indirect?
    Mr. Marshall. In the case of heroin, I believe that we 
could have a very good chance of having an impact. In the case 
of cocaine, I am not so sure, and I am really even doubtful 
that we could, in a direct way.
    Mr. Ose. Well if General Serrano took down--I am trying to 
find it. I think it was a lab producing 8 tons a week of 
hydrochloride, which is the cocaine precursor--if General 
Serrano took down 8 tons a week, would that have an impact?
    Mr. Marshall. It is--again, Congressman, it is difficult to 
say at what level you begin having an impact and----
    Mr. Ose. All right; 16 tons a week?
    Mr. Marshall. I like to explain it, I think, in a manner 
where you have a certain level of demand for the product in our 
country. If you look at the amount of cultivation and you look 
at the producing capability of laboratories, they are capable 
of producing--or they are actually producing a level that is in 
excess of our demand in the United States and on the European 
markets. They do that because they build in a certain number of 
losses. They build in a certain spoilage. They build in a 
certain amount that they think will be seized by law 
enforcement. So they actually produce more than the demand. But 
then when you look at the amount under cultivation--the 
production capability--that is an even higher number. So you 
would have to bring that production capability, not the actual 
production, down to the level of demand, but you have to bring 
the capability down to a lower level, and this a very, very 
difficult thing to do.
    I believe, personally, that there is an almost limitless 
amount of cultivation--or cultivation capability, at least--and 
I think it is going to be very, very difficult to impact that 
larger number up there.
    Mr. Ose. Has the provision--let me just ask what I think is 
a real simple question. Has the provision of the helicopters to 
General Serrano been a positive or negative influence on his 
ability to interdict this market?
    Mr. Marshall. Very positive, both in the area of the 
Colombian National Police law enforcement capabilities and in 
the area of heroin, opium poppy eradication, very positive.
    Mr. Ose. So it has been positive?
    Mr. Marshall. Yes, I believe it has been positive.
    Mr. Ose. Thank you.
    Mr. Mica. Mr. Barr.
    Mr. Barr. I am fine, Mr. Chairman; thank you.
    Mr. Mica. Well I appreciate the witnesses coming before us 
today. We have additional questions we would like to submit, 
and, without objection, we will leave the record open for at 
least 2 weeks for additional responses.
    Since we have the Department of State here today and the 
Department of Justice and DEA, you all are really in the 
forefront of our efforts to seek cooperation.
    We have gotten excellent cooperation from the Bolivians, 
President Banzer; excellent cooperation from President 
Fujimori. President Pastrana, the new President of Colombia, 
has pledged, and I feel very confident that he will be, a good 
working partner in this issue.
    But the problem we have in the whole western hemisphere is 
the question of Mexico. We also have a problem with Cuba 
becoming a drug haven and other areas. But this extradition 
question really goes to the heart of it, and you all have a key 
role to play.
    We are just Members of Congress, we just try to respond to 
the concerns of our constituents. Unfortunately, this somehow 
doesn't get national attention. But when you go home tonight, I 
want the three of you to think about this--this issue is like 
three Columbine High Schools every single day across this 
country. And if you see the tragic deaths--I had another heroin 
death in my district--these are just unbelievably horrific 
deaths, particularly among our young people. There has been an 
875 percent increase in heroin use among our teens in the last 
5 years. These are staggering statistics that just aren't 
getting adequate attention.
    But we, in Congress, are charged with getting some 
response. We view Mexico as a good ally, but you are on the 
forefront of the Department of Justice and State efforts and 
enforcement efforts to get their cooperation, so anything you 
can do, particularly on the extradition front, the maritime 
agreement front. We are not doing this to be bad guys or to 
call you here and harass you, but this is an incredible 
national problem--100,000 deaths in the last 6 years, plus--and 
most of it can be attributed to narcotics coming through 
Mexico, unfortunately.
    So, we solicit your cooperation, your suggestions, and I 
appreciate your being with us today and hope that you will take 
these back to your respective agencies and work with us on 
these important items.
    Thank you.
    I would like to call our second panel this afternoon. Rear 
Admiral Ernest R. Riutta, the Assistant Commandant for 
Operations of the U.S. Coast Guard; and Ronald E. Brooks, past-
president of the California Narcotic Officers Association.
    We are pleased to welcome both of these gentlemen to our 
subcommittee. I did indicate--I am not sure if you heard my 
statements for our first panel, but we are an investigations 
and oversight subcommittee of Congress. We ask our witnesses to 
submit any lengthy statements for the record, or other 
materials for the record, And we do swear in our witnesses, so 
if you would stand, gentlemen, and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Thank you. The record will reflect the witnesses 
answered in the affirmative. We are pleased to, again, welcome 
both of you. And we will hear, first, from Admiral Ernest--is 
it Riutta?
    Admiral Riutta. Riutta.
    Mr. Mica. Thank you; Assistant Commandant for Operations of 
the U.S. Coast Guard. Thank you.

    STATEMENTS OF REAR ADMIRAL ERNEST R. RIUTTA, ASSISTANT 
  COMMANDANT FOR OPERATIONS, U.S. COAST GUARD; AND RONALD E. 
     BROOKS, PAST-PRESIDENT, CALIFORNIA NARCOTIC OFFICERS 
                          ASSOCIATION

    Admiral Riutta. Thank you, Mr. Chairman. I am honored to be 
here, on behalf of the Commandant, to testify before this 
committee.
    I have submitted a statement for the record, and with your 
permission----
    Mr. Mica. Without objection, that will be made part of the 
record.
    Admiral Riutta. I would like to just make a few comments to 
summarize my statement.
    Mr. Mica. Go right ahead, sir.
    Admiral Riutta. Sir, bilateral agreements are extremely 
effective tools for international cooperation and drug 
interdiction. International cooperation is critical to the 
success of the suppression of drug smuggling at sea. In 
recognition of this importance, an international law framework 
for cooperation in combatting drug flow has been developed. The 
1988 United Nations Convention against Illicit Traffic in 
Narcotic Drugs and Psychotropic Substances recognizes maritime 
drug trafficking as an international problem requiring 
bilateral and multilateral cooperation.
    Article 17 of this convention requires parties to cooperate 
to their fullest extent possible to suppress illicit traffic by 
sea in conformity with the International Law of the Sea. It 
urges parties of the convention to enter into a bilateral or 
reasonable agreement to facilitate or enhance cooperation. 
Article 17 serves as the basis for the U.S.'s bilateral 
maritime counterdrug agreements.
    The operational goal of these regional agreements is quite 
simple: to make territorial boundaries as transparent to law 
enforcement as they are to smugglers seeking refuge from 
interdiction. As the lead agency for maritime drug 
interdiction, your Coast Guard actively patrols the waters of 
the Caribbean Sea and the eastern Pacific in an effort to 
interdict or deter drug smugglers.
    Campaign Steel Web is the Coast Guard's multiyear strategic 
plan for increasing seizure rates to achieve prescribed targets 
in the national drug control strategy. International engagement 
by way of bilateral agreements is one of the cornerstones of 
Campaign Steel Web. The Coast Guard conducts frequent combined 
operations with military and law enforcement organizations of 
many source and transit nations. In addition, Coast Guard law 
enforcement detachments deploy aboard British and Dutch 
warships involved in counterdrug operations. Leveraging foreign 
assets through bilateral and regional cooperation raises the 
smugglers' risk of interdiction and enhances the denial of 
maritime smuggling routes.
    The United States has developed a comprehensive model 
agreement to enable maritime interdiction forces to work 
effectively and efficiently with other nations. Coast Guard 
officers are key members of interagency teams led by the 
Department of State who negotiate agreements with foreign 
nations. Currently, there are 19 counterdrug bilateral 
agreements in force and 14 other agreements or amendments to 
existing agreements in various stages of negotiation. These 
agreements vary in scope between nations as they deal with 
national sovereignty on a cooperative basis.
    The comprehensive model includes standing authority to take 
the following actions: board and search vessels waving the flag 
of a signatory nation; embark a shiprider empowered to 
authorize patrols, boardings, searches, seizures, and arrests 
in sovereign waters; pursuit of suspect vessels into sovereign 
waters, with permission to stop, board, and search; entry into 
sovereign waters to investigate suspect vessels and aircraft, 
also with permission to stop, board, and search; overflight by 
national aircraft in sovereign airspace in support of 
counterdrug operations, and authority to relay orders to land 
in the territory of a signatory nation.
    Since these agreements deal with the issues of national 
sovereignty on a cooperative basis, the United States is not 
always able to reach agreement on all six parts of the model 
maritime agreement, and, therefore, some of our agreements are 
more limited in scope than the six functions I just described.
    These negotiations, as you would expect, are a lengthy 
process, so we expect to conclude about one to two agreements 
of this nature per year. Our current focus involves Central 
American countries, including Panama, Nicaragua, and Honduras.
    Under ideal conditions, a comprehensive regional agreement 
that denies safe havens for any smugglers would be our ultimate 
goal. Until that day comes, however, the next best thing are 
the bilateral agreements that we are putting in place.
    That concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Rear Admiral Riutta follows:]


    [GRAPHIC] [TIFF OMITTED] T3238.036
    
    [GRAPHIC] [TIFF OMITTED] T3238.037
    
    [GRAPHIC] [TIFF OMITTED] T3238.038
    
    [GRAPHIC] [TIFF OMITTED] T3238.039
    
    [GRAPHIC] [TIFF OMITTED] T3238.040
    
    [GRAPHIC] [TIFF OMITTED] T3238.041
    
    [GRAPHIC] [TIFF OMITTED] T3238.042
    
    [GRAPHIC] [TIFF OMITTED] T3238.043
    
    [GRAPHIC] [TIFF OMITTED] T3238.044
    
    Mr. Mica. Thank you, we will hear from Mr. Brooks, first, 
and then we will ask questions.
    Mr. Brooks is past-president of the California Narcotic 
Officers Association. We are pleased to have you.
    You are recognized, sir.
    Mr. Brooks. Thank you, Chairman Mica; and let me first 
thank you and this committee for the leadership role that you 
have taken and the support that you have given to drug law 
enforcement.
    I am here representing the California Narcotic Officers 
Association, our president, Christy McCampbell, and our more 
than 7,000 members in the National Narcotic Officers 
Association's Coalition, 33 State associations with 50,000 
members.
    I am not an expert in extradition treaties or national 
security matters like our previous presenters, but I am a 
working narcotics agent who, for the last 24 years, has put my 
own life and the lives of the men and women that work for me at 
risk on a daily basis in the fight against drugs.
    The United States and all Americans are currently under 
attack from enemies based on foreign soil. We are faced with 
daily acts of terrorism that make the bombing of the Murrah 
Building and the World Trade Center pale by comparison. With 
the cost to Americans reaching more than $50 billion annually, 
and thousands of lives lost each year, it is clear that drug 
trafficking is international terrorism. The greatest threat to 
the security of this Nation is drug abuse and the crime, 
violence, and social ills that accompany it.
    It is very appropriate that we are holding these hearings 
today, during the annual Police Memorial Week services. This is 
a sacred time for those of us in law enforcement. Since 1794, 
when U.S. Marshal Robert Forsythe became the first law 
enforcement officer to give his life in the line of duty 
protecting American citizens, 14,600 of my fellow law 
enforcement officers have given their lives in the service of 
their country.
    Addiction and the problems associated with drug abuse have 
plagued this country since the turn of the century. Drug use 
and enforcement were at the forefront of our Government's 
attention through the 1980's. In fact, from 1979 to 1992, 
through a strategy of drug education, treatment, and strong 
enforcement of our drug laws, we reduced drug abuse in this 
country by 50 percent. That is a victory by anybody's 
standards.
    Yet, sadly, the interest in the war on drugs has steadily 
diminished during recent years. Yet, average Americans, when 
polled, continue to describe drug abuse, violent crimes, and 
gangs as their major concerns, and rightfully so. Every 
American deserves the opportunity to live and raise a family in 
communities that are safe and drug free.
    The foreign threat that we face is particularly evident in 
California and throughout the Southwest border. America is 
especially vulnerable to the terrorism waged by international 
drug cartels operating along our very porous 2,000-mile border 
with Mexico. As you have learned today, the vast majority of 
the drugs--two-thirds of the cocaine, 14 percent of the heroin, 
80 percent of the methamphetamine--on the streets of the United 
States today, either comes from Mexico or is distributed by 
groups with command and control structures in Mexico.
    While I believe President Zedillo and the leadership of the 
Government of Mexico is truly making an effort to fight drug-
related corruption, and although there have been improvements 
in Mexico's response, with the drug crimes within the past 
year, it simply has not been enough.
    The Government of Mexico has long described itself as an 
ally of the United States in the fight against illegal drugs. 
If Mexico is our ally, the true proof of their counter-narcotic 
cooperation would start with the actual extradition of major 
Mexican drug kingpins to the United States. This would be the 
single most important accomplishment that the Government of 
Mexico could make. The return of Mexican drug kingpins and 
other major narcotic traffickers to the United States to stand 
trial before the bar of justice is the single most effective 
way to destroy the drug mafias and reduce the level of 
corruption in the country of Mexico. It is time that we bring 
these merchants of death to the United States where they can 
face our judges with the stars and stripes prominently 
displayed in the courtroom, where these thugs could soon come 
to realize that they are in the greatest country in the world, 
and that their corruption and intimidation cannot help them 
escape justice.
    The only way that our Government will be successful in 
dismantling these powerful drug cartels and halting the flow of 
drugs to our citizens is through the arrest and incarceration 
of the leaders of the cartels. Law enforcement officers working 
within the United States have effectively attacked these drug 
trafficking groups and have gathered sufficient evidence to 
bring their foreign-based leaders to justice in the United 
States. Virtually everyone in a leadership role in the cartels 
in Mexico and in Colombia have been indicted in the United 
States over and over again. The problem has been obtaining 
cooperation from Mexico and other countries in actively 
pursuing, arresting, and extraditing these drug lords.
    We will never make a significant impact on the drug problem 
in America until we have the ability, through extradition, to 
bring the leaders of these crime groups to this country for 
prosecution. Unfortunately, as you have heard already today, 
the Mexican Government has never once conducted a legal 
extradition to the United States of a drug lord. The only way 
that we are going to deliver a death blow to these drug-
trafficking groups operating outside the borders of the United 
States is to have the key leaders of those groups arrested and 
brought before us.
    It has been heartening to learn this last July that law 
enforcement officials in Mexico arrested Jesus and Luis 
Amezcua-Contreras, based on indictments in the southern 
district of California. These brothers operate a criminal 
organization that is responsible for the vast majority of the 
methamphetamine that finds its way across the Southwest border 
and into the heartland of America.
    We must, however, withhold our praise for the Government of 
Mexico until such time as the Amezcua-Contreras' are sent to 
the United States to pay for their crimes. The pending 
extradition of these dangerous drug kingpins is a test case 
that the Government of Mexico can use to demonstrate its 
resolve to join with the United States as a partner in the 
elimination of Mexican-based drug trafficking groups, but this 
extradition, alone, will not be enough. Mexico must make an 
honest effort to arrest and extradite the other infamous 
members of the drug cartels.
    It is obvious that drastic steps must be taken to force the 
extradition of drug kingpins. I would urge the House of 
Representatives to develop companion legislation to that 
proposed in the U.S. Senate by Senators Coverdell and Feinstein 
that would allow narcotic traffickers to fall under the 
International Economic Powers Act, where we can freeze out 
businesses and individuals that participate with these drug 
traffickers.
    I would also urge, as has been suggested in this committee, 
economic sanctions against governments that clearly are not 
cooperating in our efforts, the only way we are going to make 
an impact.
    Those of us in law enforcement have accepted the risks that 
accompany our chosen professions, but we should not be asked to 
take these risks unless our Government is prepared to demand, 
in the most forceful terms, the cooperation of all nations to 
actively pursue and arrest foreign-based drug kingpins, and 
then extradite them here to the United States.
    In closing, extradition is one of the most critical weapons 
that we have in dealing with foreign nationals involved in drug 
trafficking in the United States. Organizations in many 
countries have used violent means to pursue their deadly trade. 
They are a common enemy of all civilized nations, and we need 
to work together to meet this common threat. We must bring the 
might of this great Nation to bear upon the countries that 
refuse to come to our aid, and only then we will be able to 
stop the narco-terrorists that threaten the citizens of the 
United States and people everywhere.
    I thank you very much, Mr. Chairman, for having me present 
this to you today.
    [The prepared statement of Mr. Brooks follows:]


    [GRAPHIC] [TIFF OMITTED] T3238.045
    
    [GRAPHIC] [TIFF OMITTED] T3238.046
    
    [GRAPHIC] [TIFF OMITTED] T3238.047
    
    [GRAPHIC] [TIFF OMITTED] T3238.048
    
    [GRAPHIC] [TIFF OMITTED] T3238.049
    
    [GRAPHIC] [TIFF OMITTED] T3238.050
    
    Mr. Mica. Thank you, Mr. Brooks.
    Admiral, you said there--are there 19 maritime agreements 
in place?
    Admiral Riutta. That is correct, Mr. Chairman.
    Mr. Mica. And you are negotiating how many?
    Admiral Riutta. We are in the process of either negotiating 
or modifying 14 more.
    Mr. Mica. Now, are you also involved in negotiations with 
Mexico?
    Admiral Riutta. Not on a bilateral agreement; no, sir.
    Mr. Mica. Has there been any attempt to do that in the 
past?
    Admiral Riutta. Not in one of these bilateral agreements 
that we have been negotiating across the Caribbean; not yet.
    Mr. Mica. Who makes that decision, is it the Commandant of 
the Coast Guard and some equivalent with the Mexican 
Government? Or is it our State Department and the Department of 
Justice?
    Admiral Riutta. The State Department has the lead on 
negotiations. We consult with them on what are priorities.
    And as part of our Campaign Steel Web, when we began our 
negotiations for the bilaterals, we started in the eastern 
Caribbean. The reason we started there was because there are 
many small nations that have territorial seas that the drug 
runners were able to move in and out of with impunity, because 
these nations had no ability to do anything about drug 
smugglers----
    Mr. Mica. What has happened off the coast of Mexico?
    Admiral Riutta. Mexicans have some capability of 
responding, and we have found that when we are able to get the 
Mexicans timely notification and they have forces available, 
that they do respond within their territorial waters. We have 
had some recent successes with that.
    Mr. Mica. Has there been any prioritization of having a 
maritime agreement or some bilateral agreement with Mexico, now 
that you have done 19 of these?
    Admiral Riutta. They would be very high on our list of ones 
we desire to have a bilateral----
    Mr. Mica. And has there been contact, to your knowledge, 
requesting that?
    Admiral Riutta. No, sir; I don't know that there is any 
direct contact at any level.
    Mr. Mica. It seemed like State indicated there had been 
some contact, or Justice.
    Admiral Riutta. There is none that I am aware of directly, 
officially, that says we are trying to negotiate a bilateral. 
There have been some informal talks to indicate that, up until 
now, a bilateral probably wasn't a good thing to push forward. 
But we have had no official----
    Mr. Mica. Why wouldn't it be a good thing? And who says 
that?
    Admiral Riutta. These are working level people at my level, 
sir.
    Mr. Mica. What is the reluctance?
    Admiral Riutta. The reluctance is, some of the sovereignty 
issues that are prevalent across all of the countries may be a 
little more sensitive in Mexico than others.
    Mr. Mica. Are you sensing that it is a policy of the United 
States, then, not to push, either from the State Department, a 
diplomatic standpoint, or the Department of Justice, the 
question of entering into a bilateral maritime agreement with 
Mexico?
    Admiral Riutta. To push it, at this particular time; no. I 
think everyone agrees with us that it would be a very good 
thing to have. There are many negotiations that are going on 
with the High-Level Contact Group----
    Mr. Mica. But you seemed to indicate that it wasn't 
something that they wanted to bring up.
    Admiral Riutta. That is----
    Mr. Mica. If it could be avoided?
    Admiral Riutta. Yes, sir.
    Mr. Mica. That is basically the attitude?
    Admiral Riutta. I don't know if it is an attitude so much 
as it is a practicality of the number of things they want to 
negotiate. Is this as important as some of the other things 
that are on the table?
    Mr. Mica. That it doesn't seems to be up there, from your 
perspective?
    Admiral Riutta. No, sir.
    Mr. Mica. They don't want to raise it.
    What happens in the situation of----
    Admiral Riutta. Can I add something, sir, at this point?
    Mr. Mica. Go ahead.
    Admiral Riutta. There is a multilateral negotiation that is 
being sponsored by the Netherlands for the Caribbean, and that 
is the preferred method that the State Department has been 
using in recent months, to try to press it forward on----
    Mr. Mica. With Mexico?
    Admiral Riutta. With Mexico; that is correct.
    Mr. Mica. We are using the Dutch route? Maybe we could use 
the Amsterdam needle model. [Laughter.]
    Admiral Riutta. Well, if you recall, sir, that the genesis 
of this is the United Nations' resolution, so I mean it worked 
very well when----
    Mr. Mica. Right, from last year.
    Admiral Riutta [continuing]. They created that, so if the 
Dutch can help us achieve a bilateral or multilateral 
arrangement----
    Mr. Mica. And would that give us, our Dutch ships, the 
right to--[laughter]--to participate with the Mexican nationals 
encounter?
    Admiral Riutta. I would suspect so; yes, sir.
    Mr. Mica. What happens in the case of hot pursuit rights in 
Mexican waters now?
    Admiral Riutta. Today?
    Mr. Mica. Yes.
    Admiral Riutta. Right now, when we are pursuing someone 
into Mexican waters, or approaching Mexican waters, we inform 
the embassy through the IAC group--I don't remember what the 
acronym stands for, but it is a coordinating group in the 
embassy. They go to Marina through Cendro, and the Mexicans 
respond, of course--there had been one case last year where the 
Mexicans actually allowed us to continue the hot pursuit 
necessary in their territorial seas until such a time as they 
were able to pick up the case and then we were asked to depart 
their waters.
    If we don't get the agreement, or they aren't able to do it 
then, we can't go into Mexican waters----
    Mr. Mica. So there was one case where we could pursue. Have 
there been cases where they have been lost?
    Admiral Riutta. There have been some, sir. I can't tell you 
exactly. I can find them.
    Mr. Mica. How would you view this, as far as your 
involvement in trying to help us, then, go after these boats? 
Would it be helpful to have this in place?
    Admiral Riutta. A bilateral agreement?
    Mr. Mica. Yes.
    Admiral Riutta. Absolutely.
    Mr. Mica. And where else are we lacking? Did you say 
Panama, Nicaragua, and Honduras?
    Admiral Riutta. Yes, sir. We are starting to work our way 
up Central America if you will. As I mentioned earlier, we 
started in the eastern Caribbean because that was where we 
judged the biggest problem was. We are working our way around, 
and the objective is to have agreements with every country that 
has a coastline----
    Mr. Mica. Has Haiti approved one yet?
    Admiral Riutta. No, sir, they haven't approved one yet 
because----
    Mr. Mica. Because the parliament hasn't met--addressed the 
problem?
    Admiral Riutta. That is correct. That is the problem.
    Mr. Mica. What do you see as far as trafficking in and 
around Cuba?
    Admiral Riutta. There is a substantial amount of traffic 
that goes through Cuba. I could get the numbers for you if you 
like of what the percentages that we get from international--
cocaine flow, but there is quite a bit----
    Mr. Mica. Of course, you have no agreement with Cuba?
    Admiral Riutta. No, sir; we do not.
    Mr. Mica. What about pursuit? Do you just stop at the----
    Admiral Riutta. We stop outside the territorial sea.
    Mr. Mica. Are there any instances of Cubans picking up on 
your pursuit to----
    Admiral Riutta. Yes, sir. We have had some cases where the 
Cuban Border Guard has actually come out and picked up the 
pursuit of the----
    Mr. Mica. You said ``some cases.'' Are they pursuing most 
of them, or are most of them ignored? And are they going into 
this water and using it as an escape route--knowing that you 
are not able to pursue them?
    Admiral Riutta. In answer to the first question, when the 
Cubans have resources available, and we are able to give them 
timely notification, they seem to respond. I don't know of any 
case that they just turned us down flat. However, there is an 
awful lot of coastline that has no one to respond.
    And the answer to your second question is, ``Yes.'' The 
drug runners using the waters through where we cannot go on--
yes.
    Mr. Mica. What kind of craft are you seeing used for those 
operations?
    Admiral Riutta. Sir, they are mostly ``go fast'' boats.
    Mr. Mica. ``Go fast?'' In and out?
    Admiral Riutta. Yes, sir--in and out.
    Mr. Mica. OK.
    Mr. Brooks, are you seeing more or less heroin on the 
street? Cocaine and methamphetamine? What are your 
observations?
    Mr. Brooks. We are seeing a decrease, actually, in 
cocaine----
    Mr. Mica. Cocaine----
    Mr. Brooks [continuing]. But certainly an increase in 
heroin. On the West Coast where we are, the majority of the 
heroin is ``black tar,'' Mexican-produced heroin. In fact, 14 
percent of all the heroin in the Nation is produced in Mexico.
    What we are seeing is, in California--1,578 clandestine 
methamphetamine labs last year. We are awash in 
methamphetamine, and we are tracking now with the DEA 
methamphetamine across the United States to the Midwest, and 
even now, to the Northeast and the Southeast.
    This methamphetamine--the small mom and pop clandestine 
labs are not--although there are a lot of them, they don't 
produce a significant amount of methamphetamine. But the super 
labs producing hundreds and hundreds of pounds of 
methamphetamine in California are being run by Mexican crime 
families, particularly the Amezcua's and the Arellano-Felix's, 
from command and control structures in Mexico. Labs on the 
ground, precursors coming over from Mexico, and the cash 
proceeds from those sales going back to Mexico. That has truly 
become a drug that is causing us tremendous problems, not only 
in toxic dumping, in drugs on the street, but in domestic 
violence. And, in fact, some studies show as much as 86 
percent, 80 to 86 percent, of all the child abuse and family 
violence that we are seeing now in California is related to 
methamphetamine because the drug causes so much violence.
    So it is a big problem for us, and it is a problem because 
we have these Mexican crime bosses operating in the relative 
safety of their own country, and not truly fearing arrest or 
extradition.
    Mr. Mica. Thank you.
    I am going to yield to Mr. Barr for two purposes.
    Mr. Barr, would you take over and finish the hearing, ask 
questions that you may have, and then conclude the hearing? 
They are just calling me to the floor right now, so I would 
appreciate it if----
    Mr. Barr. Actually, Mr. Chairman, you covered the topics 
that I was going to cover.
    I very much appreciate the witnesses being here and hope 
that we can see some action as a result of these hearings 
today, so that both the Coast Guard and our narcotics officers 
in California can see some of these folks brought up here.
    I know the extradition matter isn't directly related to 
what you are doing, Admiral, but I appreciate you testifying 
with regard to the various agreements, and, hopefully, we can 
see some, because I understand, knowing both maritime law and 
international law is very, very complex. And as you indicated, 
you can take a drug runner that goes from Florida down to the 
coast of South American Venezuela, and you go through dozens of 
jurisdictions, and each one of those gives them an opportunity 
to do stuff that you are not aware of because you can't 
actually go into those waters.
    Hopefully, we will see a comprehensive model agreement. I 
agree that it is sorely needed, and, hopefully, through your 
testimony today, we can maybe in some small way, light a fire 
under the State Department to move forward with a little more 
dispatch on this. I think this is very, very important for our 
interdiction efforts in the Caribbean area, more than anyplace 
else in the world.
    Admiral Riutta. Sir, if I may, I would like to say that the 
State Department has been working very well with us--as you 
said, there are very complex agreements. We have almost a set 
negotiating team, and they have done a very good job in working 
with us in bringing these to court----
    Mr. Barr. OK.
    Mr. Chairman, if I could, ask unanimous consent to have a 
statement by Ms. Ros-Lehtinen placed in the record.
    Mr. Mica. Without objection, so ordered.
    [The prepared statement of Hon. Ileana Ros-Lehtinen 
follows:]


[GRAPHIC] [TIFF OMITTED] T3238.051

[GRAPHIC] [TIFF OMITTED] T3238.052

    Mr. Barr. OK; thank you, Mr. Chairman.
    Mr. Mica. I would like to thank both of you.
    Mr. Barr. And thank you, Mr. Brooks, and, Admiral.
    Mr. Mica. We may have some additional questions for you, 
Admiral. I hate to cut you off short, but, again, I am being 
called to the floor.
    I want to thank you so much, Mr. Brooks, and what your 
folks do.
    Mr. Brooks. Thank you.
    Mr. Mica. We are very proud of you, particularly during a 
week when we can remember those who put their life on the line 
for our country and all Americans.
    There being no further business to come before the 
subcommittee at this time, this meeting is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]

                                   <all>

</pre></body></html>
